<html>
<title> - SECURITY AND STABILITY IN AFGHANISTAN AND IRAQ: DEVELOPMENTS IN U.S. STRATEGY AND OPERATIONS AND THE WAY AHEAD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-170]
 
 SECURITY AND STABILITY IN AFGHANISTAN AND IRAQ: DEVELOPMENTS IN U.S. 
               STRATEGY AND OPERATIONS AND THE WAY AHEAD

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 10, 2008


                                     
[GRAPHIC] [TIFF OMITTED] 

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
45-827                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES


                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, September 10, 2008, Security and Stability in 
  Afghanistan and Iraq: Developments in U.S. Strategy and 
  Operations and the Way Ahead...................................     1

Appendix:

Wednesday, September 10, 2008....................................    51
                              ----------                              

                     WEDNESDAY, SEPTEMBER 10, 2008
 SECURITY AND STABILITY IN AFGHANISTAN AND IRAQ: DEVELOPMENTS IN U.S. 
               STRATEGY AND OPERATIONS AND THE WAY AHEAD
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense, Department of 
  Defense; accompanied by Ambassador Eric S. Edelman, Under 
  Secretary of Defense for Policy, Department of Defense.........     5
Mullen, Adm. Michael G., USN, Chairman, Joint Chiefs of Staff; 
  accompanied by Vice Adm. James A. Winnefeld, Jr., USN, Director 
  of Strategic Plans and Policy, Joint Chiefs of Staff...........     9

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    55
    Mullen, Adm. Michael G.......................................    60

Documents Submitted for the Record:

    Afghanistan Map..............................................    67

Witness Responses to Questions Asked During the Hearing:

    Mrs. Boyda...................................................    71
    Ms. Shea-Porter..............................................    72
    Mr. Skelton..................................................    71
    Mr. Taylor...................................................    71

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    77
    Mr. Miller...................................................    77
    Ms. Shea-Porter..............................................    78
 SECURITY AND STABILITY IN AFGHANISTAN AND IRAQ: DEVELOPMENTS IN U.S. 
               STRATEGY AND OPERATIONS AND THE WAY AHEAD

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 10, 2008.
    The committee met, pursuant to call, at 10:07 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Welcome, Secretary Gates.
    Welcome, Admiral Mullen.
    Welcome, Ambassador Edelman, General Winnefeld, for being 
with us today.
    Where are they? Right behind you. Thank you so much.
    We are pleased to have you with us today to discuss the way 
forward in Afghanistan and Iraq. I would note, gentlemen, that 
your appearance today fulfills your obligation to brief this 
committee on force levels in Iraq under Section 1223 of the 
National Defense Authorization Act for Fiscal Year 2009. As it 
turns out, this hearing could not be more timely.
    To talk about progress in Iraq and Afghanistan is to talk 
about the tremendous Americans serving in uniform in those 
theaters. It is only appropriate to begin the hearing by paying 
tribute to them, to their service, and to their families.
    Admiral Mullen, about nine months ago, you testified to 
this committee, and let me quote you--we have discussed this 
since then--``Our main focus, militarily, in the region and in 
the world right now, is rightly and firmly in Iraq. It is 
simply a matter of resources, of capacity. In Afghanistan, we 
do what we can. In Iraq, we do what we must.''
    Now, as you know, I have disagreed with you on that 
approach. Given this, I find myself struggling with the 
President's announcement yesterday that nets one additional 
brigade for Afghanistan and then not until this coming 
February. Almost all indicators of security and stability in 
Afghanistan are down this year. General McKiernan continues to 
plead publicly and to Members of Congress for additional 
troops, specifically three additional brigades. And the 
intelligence community and others, like Admiral Mullen, 
acknowledge any future attack against our homeland is most 
likely to come from the safe havens that exist along the 
Afghanistan-Pakistan border.
    No one has been able to explain to me why Iraq is our first 
priority, based on national security interests. How can it be, 
when those most likely to attack us are in Afghanistan? How is 
it that the commander in Iraq was given every resource needed 
to achieve his goals, and we are not doing the same for the 
Afghanistan commander? Seven years after 9/11, when can we tell 
the American people we will be prepared to do what is needed to 
win in Afghanistan? I know you both are spending an enormous 
amount of time in Afghanistan. But seven years on, I still do 
not see a well-coordinated, comprehensive strategy for 
Afghanistan that addresses all aspects of the mission there, 
such as training and equipping the Afghan National Security 
Forces, counter narcotics, reconstruction, improving 
governance, and regional issues, including the border with 
Pakistan. Such a strategy needs to marshal all our resources 
and lay out clearly what it will take to succeed.
    The Fiscal Year 2008 National Defense Authorization Act 
required such a strategy, yet the Department's answer was 
delivered two months late, with four-month old data, and did 
not include the required strategy. It also did not include 
enough on specific measures of progress, a timetable for 
achieving goals, or required budget information. There are a 
lot of specifics I hope we can have an opportunity to discuss 
today, including the status and the capability of the Afghan 
National Security Force and the chronic shortfall of more than 
2,500 trainers and mentors for that force.
    We also must remember that we can only stabilize 
Afghanistan if we are able to handle its complex relationship 
with Pakistan. However, in April 2008, the Government 
Accountability Office (GAO) reported that the U.S. lacks a 
comprehensive plan to eliminate insurgent safe havens in 
Pakistan's border region. Another GAO report found significant 
oversight and accountability problems recording Department of 
Defense (DOD) Coalition Support Funds which had been used to 
reimburse Pakistan nearly $7 billion since 2002 for support of 
American operations. Our policy on Pakistan, which has been 
largely shaped by the requirements of the war in Afghanistan, 
has not proven resilient in the face of changing circumstances 
in that country.
    This all suggests that the U.S. has simply not devoted the 
focus or resources necessary to address the national security 
threats in Afghanistan and its border area. I am not 
discounting the gains made in Afghanistan since 2001. They are 
real, and they are important successes. And of course, U.S. 
troops in Afghanistan continue to serve with excellence, with 
devotion, with patriotism. And we all take this for granted so 
much.
    However, much more must be done. And we have seen all too 
well this year any gains can quickly vanish if we don't 
capitalize on them. Our North Atlantic Treaty Organization 
(NATO) allies must also do much more, but we cannot expect our 
allies to step up if the U.S. itself does not demonstrate a 
strong commitment to the success of the Afghan mission.
    In terms of Iraq, I applaud the military's successes there, 
but I remain concerned about the pace of political progress. 
The Iraqis still have not been able to even come to an 
agreement on holding provincial elections, much less address 
more fundamental questions like the future of Kirkuk. Given 
this, I have a real question of why we are not redeploying 
additional forces, both to bolster our efforts in Afghanistan 
and to keep the pressure on the Iraqis to come to a sustainable 
political accommodation.
    So, gentlemen, I ask you, when will the conditions in Iraq 
be good enough, and when will the conditions in Afghanistan 
have deteriorated enough, to warrant the reprioritization of 
focus and resources that is required to ensure the long-term 
success of the Afghanistan mission? When will you be able to 
tell this committee with confidence that, in Afghanistan, we do 
what we must?
    Now I turn to my good friend, my colleague from California, 
ranking gentleman, Mr. Hunter, Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thank you for 
holding this hearing in a very timely way, especially timely in 
light of the President's announcement yesterday to remove some 
8,000 American troops from Iraq by February.
    I want to join with you in thanking our witnesses for being 
with us today and for their testimony.
    First, I think it is important, with respect to Iraq, to 
point out that we are winning in Iraq. The United States is 
going to be leaving that theater in victory. And the metrics 
that are moving us toward that goal are manifested in the 80 
percent reduction in the number of attacks; the 70 percent 
reduction in improvised explosive devices (IEDs)--that is, 
roadside bomb attacks; the fact that we found some 85 percent 
more caches this year than we did last year, with the enormous 
cooperation now mobilizing the citizenry of Iraq on our side; 
and also the increasing capability of the Iraqi Security Forces 
(ISF). That force is now standing up fairly robustly, the 130-
plus battalions.
    And Mr. Chairman, I think it is clear now that the United 
States did the right thing in not trying to simply restand the 
existing Iraqi Army, which included some 10,000-plus Sunni 
generals, but we had to build that force from scratch. And 
although that was difficult and it has been a long process, I 
think that that is now paying off.
    And finally, I think we also need to look at the leadership 
that has been manifested in this discussion over the last 
couple of days with the books out about the American decisions 
that were made by President Bush, by the situation that 
surrounded our Iraq policy over the last couple of years. And 
you know, I noticed the President being criticized strongly by, 
I think, Mr. Woodward on a number of shows over the last couple 
of days; implicitly criticized, but you know, he pointed out 
that this President, in the Post yesterday, gave this message 
to General Petraeus. He said: ``I want you to win. Your mission 
is to win. And I will give you everything that you need to 
win.''
    Mr. Chairman, those words to the combatant commander in 
that theater are the most important words that an American 
President can deliver. And they are the words that didn't go to 
the combatant commander in Vietnam many years, when you had a 
President who literally decided which bridges were going to be 
bombed on a certain day and what result we hoped to expect from 
that particular day's operations.
    I think this operation in Iraq is going to be successfully 
concluded as the Iraq Army continues to stand up.
    But Mr. Chairman, we now are focusing much more strongly 
than ever on Afghanistan. And Afghanistan involves a very 
complicated situation, in some ways similar to Iraq; in many 
ways very difficult and very different from the Iraq situation. 
You have got the border lands now in Pakistan approaching a 
level at which they are becoming now the new sanctuary for al 
Qaeda and Taliban operations. The political situation inside 
Pakistan complicates our ability to interfere with this new 
sanctuary. It is going to provide a challenge for us for the 
next many years.
    I think, Mr. Chairman, it is important that we establish an 
intelligence, surveillance, and reconnaissance (ISR) curtain on 
the border with Pakistan, that we utilize American capabilities 
with respect to reconnaissance and surveillance so that, 
regardless of what happens in Pakistan--and that is a large 
question mark, where their politics are going to go, where 
their military is going to go--that we have the ability to 
interdict operations emanating from that side of the border. 
And that is going to be a challenge for our ability to field 
systems, but I think we have got to field a lot of new systems 
and utilize everything that we presently have in our inventory.
    Obviously, another challenge is to bring this team, this 
NATO team, this International Security Assistance Force (ISAF) 
team plus into a full coordinated operation. This is a massive 
challenge for us with the disparate directives that are coming 
down from our partners' governments, from their civil 
governments, with respect to conditions that are put on their 
troops--things they can do, things that they can't do. We need 
to have a unified command. And we have done that to some degree 
by giving this second hat to the American commander, General 
McKiernan. That is very important. But unifying and 
coordinating the allies is going to be a continuing challenge 
and one that we must focus on.
    So I know that the order of the day, Mr. Chairman, over the 
next several years is going to be, I think, making our 
operation in Afghanistan work. And I look forward to listening 
to the Secretary and the Chairman's ideas with respect to where 
we go from here.
    Lastly, Mr. Chairman, I think that it is very important for 
us to look at the increased troop levels that are taking place 
now and have taken place largely unnoticed over the last couple 
of years in Afghanistan and remember the fact that Afghanistan, 
the Afghanistan operation, serves another purpose right now; it 
manifests another important Western exercise, and that is 
bringing together these allies in the NATO nations and the 
newly freed nations that have come out from behind the Iron 
Curtain which today comprise some of our strongest allies, 
bringing them together and training them to share this burden 
of fighting this war against terror with the United States.
    And I think that one difficulty that we have is that a 
number of other nations have looked at us and said, ``We are 
going to let Uncle Sam do it.'' And when they look at the price 
tags that attend deploying forces in a foreign country, 
supporting those forces, the logistics, especially with respect 
to aerial operations, they say it is going to be a lot easier 
to let the Americans pay for this.
    And so part of your challenge, Mr. Secretary, and to the 
Chairman of the Joint Chiefs, part of your challenge is to 
bring our allies with us. And you made statements like this in 
the past to the effect that it is only right that in these 
difficult and contentious areas where we are taking killed in 
action (KIAs) and wounded in action (WIAs), it is not 
acceptable to have allies which have conditions and rules 
placed on them by their home governments that say that they 
can't leave the garrison, that they can't operate in difficult 
areas, that they can't get involved in firefights when the 
American Marines and soldiers are carrying that burden.
    So bringing them with us in this exercise in Afghanistan 
is, I think, a very major part of meeting this challenge. So we 
have got a big spread of important issues and sub-issues here 
today.
    Mr. Secretary, thank you for your leadership.
    And the Chairman, Admiral Mullen, thank you for your 
leadership here over the last year. I look forward to your 
testimony.
    The Chairman. Thank you very much.
    Mr. Secretary, first, let me thank you for not just your 
appearance today, and Admiral Mullen, thank you for your 
appearance today. It is critical that you be with us. But thank 
you for fulfilling the section in the last year's defense bill 
regarding Iraq. We appreciate you doing that as part of this 
hearing.
    The Chairman. Mr. Secretary.

   STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE, 
   DEPARTMENT OF DEFENSE; ACCOMPANIED BY AMBASSADOR ERIC S. 
 EDELMAN, UNDER SECRETARY OF DEFENSE FOR POLICY, DEPARTMENT OF 
                            DEFENSE

    Secretary Gates. Mr. Chairman, Representative Hunter, 
members of the committee, thank you for inviting us to give you 
an update on the wars in Iraq and Afghanistan. I would also 
like to express, at the outset, gratitude to the Congress for 
recently passing legislation to enhance the benefits of the GI 
bill. The Department is very pleased with the outcome. And I 
can tell you that our men and women in uniform are deeply 
appreciative. Of course this is just one example of the many 
ways in which you have supported our troops over the past 
years. And on behalf of all of them, I thank you.
    Last week General Petraeus made his recommendations on the 
way forward in Iraq. Separate recommendations were submitted by 
the commander of the International Security Assistance Force in 
Afghanistan, the commander of Central Command, the service 
chiefs, and the chairman. Although each viewed the challenges 
from a different perspective, weighing different factors, all 
once again arrived at similar recommendations. We have already 
withdrawn the five Army brigade combat teams, two Marine 
battalions and the Marine expeditionary unit that were sent to 
Iraq as part of the surge. The President announced yesterday 
that approximately 8,000 U.S. troops will be withdrawn from 
Iraq by February without being replaced. The withdrawal of 
approximately 3,400 noncombat forces, including aviation 
personnel, explosive ordnance teams, combat and construction 
engineers, military police, and logistics support teams, all 
begin this month, will continue through this fall and winter, 
and will be completed in January. In addition, a Marine 
battalion stationed in Anbar will return in November and 
another Army brigade combat team (BCT) will return by early 
February. The bottom line point is that the drawdowns 
associated with the President's announcements do not wait until 
January or February, but, in fact, begin in a few days.
    The continuing drawdown is possible because of the success 
in reducing violence and building Iraqi security capacity. Even 
with fewer troops, U.S. troops, in Iraq, the positive trends of 
the last year have held and, in some cases, steadily continued 
in the right direction. Our casualties have been greatly 
reduced, even though one is still too many. And overall 
violence is down 80 percent. The recent turnover of Anbar 
province to Iraqi provisional control, the 11th of 18 provinces 
to be turned over, highlights how much the situation has 
improved. My submitted testimony has more details on some of 
the other positive indicators, as well as serious challenges 
that remain. In short, Iraqi Security Forces have made great 
strides. Political progress has been incremental but 
significant. And other nations of the region are increasingly 
engaged with Iraq.
    That said, there are still problems, such as the prospect 
of violence in the lead-up to elections, worrisome reports 
about sectarian efforts to slow the assimilation of the Sons of 
Iraq into the Iraqi Security Forces, Iranian influence, the 
very real threat that al Qaeda continues to pose, and the 
possibility that Jaish al Mahdi could return.
    Before moving onto Afghanistan, I would like to make a few 
general comments and put the successes of the past year and a 
half into some context. The President has called our reduction 
in troop numbers a return on success. I, of course, agree, but 
I would expand further. The changes on the ground and in our 
posture are reflective of fundamental change in the nature of 
the conflict. In past testimony, I have cautioned that no 
matter what you think about the origins of the war in Iraq, we 
must get the end game there right. I believe we have now 
entered that end game, and our decisions today and in the 
months ahead will be critical to regional stability and our 
national security interests for years to come.
    When I entered this office, the main concern was to halt 
and reverse the spiralling violence in order to prevent a 
strategic calamity for the United States and allow the Iraqis 
to make progress on political, economic, and security fronts. 
Although we all have criticisms of the Iraqi government, there 
can be no doubt that the situation is much different and far 
better than it was in early 2007.
    The situation, however, remains fragile. Disagreements in 
our country still exist over the speed of the drawdowns and 
whether we should adhere to hard and fast timelines or more 
flexible time horizons. I worry that the great progress our 
troops and the Iraqis have made has the potential to override a 
measure of caution born of uncertainty. Our military commanders 
do not yet believe our gains are necessarily enduring, and they 
believe that there are still many challenges and the potential 
for reversals in the future.
    The continuing but carefully modulated reductions the 
President has ordered represent, I believe, not only the right 
direction, but also the right course of action, especially 
considering planned and unplanned redeployments by some of our 
coalition partners. The planned reductions are an acceptable 
risk today but also provide for unforeseen circumstances in the 
future. The reductions also preserve a broad range of options 
for the next commander in chief, who will make his own 
assessment after taking office in January.
    As we proceed deeper into the end game, I would urge our 
Nation's leaders to implement strategies that, while steadily 
reducing our presence in Iraq, are cautious and flexible and 
take into account the advice of our senior commanders and 
military leaders. I would also urge our leaders to keep in mind 
that we should expect to be involved in Iraq for years to come, 
although in changing and increasingly limited ways.
    Left me shift to Afghanistan. There we are working with the 
Afghans and coalition partners to counter a classic extremist 
insurgency fueled by ideology, poppy, poverty, crime, and 
corruption. My submitted statement details some positive 
developments, such as the increased commitment by our 
international partners on both the military and nonmilitary 
fronts and the announcement yesterday to double the size of the 
Afghan Army, which has demonstrated its effectiveness on the 
battlefield. The statement also outlines in more detail some of 
the logistical challenges we still face and are working to 
improve, such as ISAF shortfalls and coordination problems 
between military forces and civilian elements, particularly the 
provincial reconstruction teams (PRTs).
    The persistent and increasing violence resulting from an 
organized insurgency is, of course, our greatest concern. The 
President has decided to send more troops to Afghanistan in 
response to resurgent extremism and violence, reflecting 
greater ambition, sophistication, and coordination.
    We did not get to this point overnight, so some historical 
context is useful. The mission in Afghanistan has evolved over 
the years since 2002, in both positive and negative ways. 
Reported insurgent activities and attacks began increasing 
steadily in the spring of 2006. This has been the result of 
increased insurgent activity, insurgent safe havens in 
Pakistan, and reduced military pressure on that side of the 
border, as well as more international and Afghan troops on the 
battlefield, troops that are increasingly in contact with the 
enemy.
    In response to increased violence and insurgent activity in 
2006, in January of 2007, we extended the deployment of an Army 
brigade and added another brigade. This last spring, the United 
States deployed 3,500 Marines. In all, the number of American 
troops in the country increased from less than 21,000 two years 
ago to nearly 31,000 today.
    At the NATO summit in Bucharest in April, ISAF allies and 
partners restated their commitment to Afghanistan. France added 
700 troops in eastern Afghanistan. This fall, Germany will seek 
to increase its troop ceiling from 3,500 to 4,500. Poland is 
also increasing its forces by more than a thousand troops. The 
number of coalition troops, including NATO troops, has 
increased from about 20,000 to about 31,000, and it appears 
this trend will continue as other allies, such as the United 
Kingdom, add more troops.
    In Bucharest in April, the President pledged the United 
States would send more troops to Afghanistan in 2009. 
Accordingly, we will increase U.S. troop levels in Afghanistan 
by deploying a Marine battalion this November and, in January 
of 2009, an Army brigade combat team, both units that had been 
slated for Iraq. As in Iraq, however, additional forces alone 
will not solve the problem. Security is just one aspect of the 
campaign, alongside development and governance. We must 
maintain momentum, keep the international community engaged, 
and develop the capacity of the Afghan government. The entirety 
of the NATO alliance, the European Union (EU), non-governmental 
organizations (NGOs), and other groups, our full military and 
civilian capabilities, must be on the same page and working 
toward the same goal with the Afghan government. I am still not 
satisfied with the level of coordination and collaboration 
among the numerous partners and many moving parts associated 
with civilian reconstruction and development and building the 
capacity of the Afghan government.
    We do face committed enemies, which brings me, finally, to 
the challenge of the tribal areas in Pakistan. As in Iraq, 
until the insurgency is deprived of safe havens, insecurity and 
violence will persist. We are working with Pakistan in a number 
of areas, and I do believe that Islamabad appreciates the 
magnitude of the threat from the tribal areas, particularly 
considering the uptick in suicide bombings directed at 
Pakistani targets. During this time of political turmoil in 
Pakistan, it is especially critical that we maintain a strong 
and positive relationship with the government, since any 
deterioration would be a set back for both Pakistan and 
Afghanistan. The war on terror started in this region; it must 
end there.
    Let me close by thanking again all Members of the committee 
and the Congress, as a whole, for their support for our men and 
women in uniform. I have noted on a number of occasions how 
positive the public response has been to those who have 
volunteered to serve. Our Nation's leaders across the political 
spectrum have led the way in honoring our service men and 
women, not just by providing the funds they need for their 
mission, but also by publicly declaring their support and 
admiration of our troops. I thank you for your sentiment, and I 
thank you for your leadership during these challenging times.
    Mr. Chairman, before I close, I would like to just take a 
moment also to take this opportunity to share with the 
committee my decision to terminate the current Air Force tanker 
solicitation. As you know, the Department has been attempting 
over the past 7 years to find a proper way forward on replacing 
the current fleet of U.S. Air Force KC-135 tankers. Most 
recently, we have been engaged in discussions with the 
competing companies on changes to the draft request for 
proposal (RFP) that would address the findings and 
recommendations of the GAO's review of the Boeing protest. It 
has now become clear that the solicitation and award process 
cannot be accomplished by January. Thus, I believe that rather 
than hand the next Administration an incomplete and possibly 
contested process, we should cleanly defer this procurement to 
the next team. Over the past seven years, this process has 
become enormously complex and emotional, in no small part due 
to mistakes and missteps on the part of the Defense Department. 
It is my judgment that in the time remaining to us, we cannot 
complete a competition that would be viewed as fair and 
competitive in this highly charged environment. I believe that 
the resulting cooling-off period will allow the next 
Administration to review objectively the military requirements 
and craft a new acquisition strategy for the KC-X as it sees 
fit.
    I am assured that the current KC-135 fleet can be 
adequately maintained to satisfy Air Force missions for the 
near future. Sufficient funds will be recommended in the fiscal 
year 2009 and follow-on budgets to maintain the KC-135 at high 
mission-capable rates. In addition, the Department will soon 
recommend to the Congress the disposition of the pending fiscal 
year 2009 funding for the tanker program and plans to continue 
funding the KC-X program in the fiscal year 2010 to 2015 budget 
presently under review.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 55.]
    The Chairman. Mr. Secretary, thank you very much.
    Admiral Mullen, thank you for your appearance today, sir.

   STATEMENT OF ADM. MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT 
 CHIEFS OF STAFF; ACCOMPANIED BY VICE ADM. JAMES A. WINNEFELD, 
JR., USN, DIRECTOR OF STRATEGIC PLANS AND POLICY, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Chairman Skelton, Representative Hunter, 
distinguished members of the committee, thank you for the 
opportunity to appear today, and thanks, as well, for all you 
do to support our men and women in uniform and their families. 
Having visited with our troops all over the world, I can tell 
you they are aware and appreciative of America's support, 
support which in so many ways emanates from this committee and 
from the Congress as a whole. So, again, on their behalf, I 
thank you for that.
    Let me begin today by also expressing my appreciation to 
the President and Secretary Gates for their support of our 
armed forces and of the family members of those who serve. 
Today, on the eve of the seventh anniversary of the 9/11 
attacks, we are reminded again of just how critical that 
service really is. And consequently, in an all-volunteer force, 
where people have other choices, how absolutely vital is the 
recognition and support of the Federal Government for the needs 
of our service men and women.
    On that note, I stand particularly grateful today for the 
President's support of the recommendations that Secretary Gates 
and I have made to him with respect to the way forward in Iraq 
and Afghanistan. I need not recount for you here the details of 
those recommendations nor the circumstances that underpin them. 
Secretary Gates has just done that, and I am in complete 
agreement with his views.
    Today, rather, I wish to make the following points. First, 
the recommendations that went forward to the Secretary and to 
the President represented a consensus view of the military 
leadership in this country. The process by which they were 
derived was candid, transparent, and thoroughly collaborative. 
The entire chains of command for both Iraq and Afghanistan were 
involved, engaged, including the Joint Chiefs.
    We did not all enjoy complete agreement early on. Frankly, 
I would have been surprised had it been otherwise. One sees 
war, feels it, fights it, leads it from one's unique 
perspective. The key to success over the long term is proving 
able to see it also from another's perspective, be it in the 
enemy's or the public's or the chain of command, and being 
informed by that knowledge as you move forward. I can assure 
you that all of us at all levels in the chain of command 
considered the whole of each struggle, the totality of each 
effort, and the need to preserve, on a global scale, our 
greater national interests.
    Some in the media have described our final recommendations 
as a compromise solution. And to the degree that this explains 
the process we employed, I would agree. But it would be wrong 
to conclude that our proposal represented a compromise in any 
way of our commitment to success. We did not compromise one war 
for the other.
    And that, Mr. Chairman, brings me to my second point. Iraq 
and Afghanistan are two different fights. Many of you have been 
to both countries. You know these differences--the enemies' 
various objectives, the political and economic challenges 
unique to each culture, the weather, even the ground. As one 
soldier in Bagram told me in Afghanistan, the terrain itself 
can be the enemy. We treated the needs of each war separately 
and weighed our decisions for each solely against the risks 
inherent and the resources available.
    Given the extraordinary success Ambassador Crocker and 
General Petraeus have achieved in Iraq, the dramatic improved 
security on the ground, the growing competence of the Iraqi 
military and police forces, the growing confidence of Iraqi 
political leaders, and the economic progress which is 
burgeoning, it is our view that the risks of drawing down by 
one brigade and one Marine battalion is minimal at best and can 
be mitigated by the readiness of coalition forces already in 
theater or back at home, should a contingency arise to warrant 
their deployment.
    The rewards, on the other hand, are potentially great, as 
we seek to build dwell time for our troops and their families 
and have at our disposal a rested, stronger, more capable 
strategic reserve for worldwide crises. As always, conditions 
on the ground matter most, and we reserve the right to 
recommend adjustments to these plans should those conditions 
require it.
    Conditions in Afghanistan certainly do require it. And I 
don't speak of Afghanistan without also speaking of Pakistan, 
for, in my view, these two nations are inextricably linked in a 
common insurgency that crosses the border between them. You 
have all seen the challenges we have faced, particularly in the 
south and east, as Taliban and al Qaeda fighters grow bolder 
and more sophisticated. You have seen the willingness of these 
disparate groups of fighters to better collaborate and 
communicate from safe havens in Pakistan; their ability to 
launch ever more sophisticated, even infantry-like, attacks 
against fixed coalition positions; their increasing reliance on 
foreign fighters; and their growing and flagrant willingness to 
use innocent people as shields. Add to this a poor and 
struggling Afghan economy, a still healthy narcotics trade, and 
a significant political uncertainty in Pakistan, and you have 
all the makings of a complex, difficult struggle that will take 
time.
    I am not convinced we are winning it in Afghanistan. I am 
convinced we can. That is why I intend to commission and am 
looking at a new, more comprehensive military strategy for the 
region that covers both sides of that border. It is why I 
pushed hard for the continued growth and training of Afghan 
National Security Forces. It is why I pressed hard on my 
counterparts in Afghanistan to do more against extremists and 
to let us do more to help them. And it is why the chiefs and I 
recommended the deployment of a Marine battalion to Afghanistan 
this fall and the arrival of another Army brigade early next 
year. These forces by themselves will not adequately meet 
General McKiernan's desire for up to three brigades, but they 
are a good and important start. Frankly, I judge the risk of 
not sending them too great a risk to ignore. My expectation is 
that they will need to perform both a training mission and the 
combat and combat support missions simultaneously, until such 
time that we can provide additional troops. And I cannot say, 
at this point, when that might be. Again, we must continually 
assess our progress there and in Iraq, weighing it against the 
global risk and the health of the force before we make any more 
commitments.
    And that, sir, leads to my final point. As I once said 
about Iraq, let me now say about Afghanistan: Absent a broader 
international and interagency approach to the problems there, 
it is my professional opinion that no amount of troops in no 
amount of time can ever achieve all the objectives we seek in 
Afghanistan. And frankly, we are running out of time.
    We can train and help grow the Afghan Security Forces, and 
we are. In fact, they are on track to reach a total end 
strength of 162,000 by 2010. The Marines conducting their 
training are doing a phenomenal job. But until those Afghan 
forces have the support of local leaders to improve security on 
their own, we will only be there as a crutch--and a temporary 
one at that. We can hunt down and kill extremists as they cross 
over the border from Pakistan, as I watched, personally, us do 
during a daylong trip recently to the Korengal valley; but 
until we work more closely with the Pakistani government to 
eliminate safe havens from which they operate, the enemy will 
only keep coming. We can build roads and schools and courts, 
and our Provincial Reconstruction Teams are doing just that. 
But until we have represented in those teams more experts from 
the fields of commerce, agriculture, jurisprudence, and 
education, those facilities will remain but empty shells. Fewer 
than 1 in 20 PRTs throughout the country are supported by 
nonmilitary personnel. Afghanistan doesn't just need more boots 
on the ground; it needs more trucks on the roads, teachers in 
schools, trained judges and lawyers in those courts. Foreign 
investment, alternative crops, sound governance, the rule of 
law; these are the keys to success in Afghanistan. We cannot 
kill our way to victory, and no armed force anywhere, no matter 
how good, can deliver these keys alone. It requires teamwork 
and cooperation. And it will require the willingness by 
everyone in the interagency and international community to 
focus less on what we think we each do best and more on what we 
believe we can all do better together.
    I know you understand that, and I appreciate all you do on 
this committee to support those of us in uniform. Thank you, 
Mr. Chairman.
    [The prepared statement of Admiral Mullen can be found in 
the Appendix on page 60.]
    The Chairman. Thank you so much for your statement, 
Admiral.
    As a side note, Mr. Secretary, you mentioned the end game 
in Iraq. It is rather interesting to recall the Sun Tzu precept 
that said war should not be entered into without considering 
the end of that war. And I question whether that was considered 
to begin with.
    I have a question, and I will only ask one at this time, if 
each of you would like to share it. Is Iraq still the higher 
priority than Afghanistan? I think we should know what the 
priority is between the two. And to lift a phrase from an 
earlier testimony, Admiral, when will we be able to do what we 
must to win in Afghanistan?
    Mr. Secretary.
    Secretary Gates. Well, I don't think it is a mathematical 
equation. I would say that success in Iraq means that we are 
steadily reducing our commitment, our level of commitment and 
resources, particularly manpower, to that theater. At the same 
time, we are able, under those circumstances, to increase our 
level of commitment and resources to Afghanistan.
    Afghanistan is, in some ways, a more complex challenge, it 
seems to me, in terms of how it is addressed. For one thing, in 
Iraq, we and the Iraqis, together, basically are the principal 
players. So if we reach agreement with the Iraqis on the 
strategy, then that is pretty well the strategy. In 
Afghanistan, we not only have many allies; we have diverse 
enemies. We don't have a single adversary. We have the Taliban. 
We have the Hekmatyar Golbedin--Golbedin Hekmatyar. We have the 
Hakani network. We have narco thugs. We have al Qaeda. We have 
foreign fighters. And while these are in many respects a 
syndicate, they are not an integrated enemy. So my view--the 
short answer to your question is that, as opposed to saying 
which has higher priority, I would say we are reducing our 
commitments in Iraq, and we are increasing our commitments in 
Afghanistan.
    The Chairman. Admiral.
    Admiral Mullen. Chairman, I spoke publicly in recent months 
about the hope, as did the Secretary, the hope I would have to 
have conditions in Iraq support reducing the number of troops 
that we have there and then making decisions about what we 
would do with those troops. That has indeed happened. And I 
continue to have that hope as conditions over time continue to 
improve--the Iraqi Security Forces continue to improve, both 
military and police--that the economy keeps continuing to 
improve and that that would allow us to continue to reduce 
troops there over time. I think the step that the President 
announced yesterday is a significant one and a very strong 
signal of what has happened in Iraq and, also, decisions to 
make to send additional troops into Afghanistan.
    There are similarities between the two, but there are also 
great differences. And I agree with the Secretary that it is 
more complex, that there are many aspects of Afghanistan that 
need to be addressed more fully than just the security. We need 
to be able to provide, with the Afghan forces, the security so 
that country can develop. But there is a great deal more to be 
done in those other areas that I talked about in my opening 
statement. So they are both a priority right now. I think we 
are in a good place with respect to Iraq. And being able to 
leverage that and look to increasing troops in Afghanistan is a 
very important step in my view.
    The Chairman. Thank you so much.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And again, gentlemen, thanks for being here.
    Mr. Secretary, just a thought on ISR. We have got the 
modularization, and the Army and the brigade combat team 
concept is an idea that was designed to ensure that we had a 
commonality of equipment and an efficiency, if you will, and 
the ability to chop units and to meld units and maintain 
military efficiency. In looking, just we have looked at, 
preliminarily--some of the staff members of the committee have 
done some analysis on ISR assets that we have throughout the 
Army and the other services, but primarily the Army, and it 
would appear to me that we have got assets that could be moved, 
could be focused on Afghanistan. And if the genius of effective 
military operations is being able to concentrate forces--that 
is, to focus resources, whether it is personnel or equipment, 
on a focal point in a limited area--we shouldn't let the 
brigade combat team concept keep us from breaking loose some of 
that equipment if we have got it in other places, having the 
flexibility to move that, perhaps from other theaters, and move 
it into the Afghanistan theater. And just looking preliminarily 
at the operations, the build up of operations, and the nature 
of those operations, and the fact that we are seeing a 
migration of the IED threat into Afghanistan, and that we need 
more surveillance capability, it would appear to me that we may 
need to look at moving existing assets very quickly into that 
theater. So just an idea there. I would hope we could work 
together with you on that and just assure that we have plenty 
of ISR in the Afghanistan theater.
    Secretary Gates. Mr. Hunter, I would just say that, first 
of all, we are going to, because of the success of the Army's 
Task Force Operational Digital Network (ODIN) in Iraq, we are 
going to recreate Task Force ODIN--or replicate it in 
Afghanistan with additional assets. I think that most of the 
other combatant commanders would tell you I have, with the help 
of the Chairman, redirected too many of their ISR assets from 
other theaters into Iraq and Afghanistan. So we have looked 
very closely at all of the ISR resources worldwide in terms of 
what we can do to provide additional capabilities, particularly 
in Afghanistan.
    Mr. Hunter. Okay. Thank you.
    And I would hope we could continue to work on that.
    The other thing is, you know, if we look at our allies, 
look at the conditions that have been imposed on some of our 
allies, with respect to what they can do down to the point 
where some of them can't leave the garrison in Afghanistan--
give us, if you will, your thoughts on how the allies are 
performing and how well we are doing in bringing this team, 
this NATO-plus, if you will, into what is really their first 
major military operation since their inception. How are we 
doing, and how do we invoke more cooperation from the allies?
    Secretary Gates. Let me speak to that and then invite the 
Chairman to add his view. I think, first of all, one of the 
positive results that has not gotten much attention out of the 
Bucharest NATO summit last April was the decision on the part 
of several of our allies to reduce or remove the caveats that--
the national caveats that they had on their troops. So we have 
seen, in several instances, our allies be able to step up to 
the plate and take on the full range of responsibilities since 
April that they had not done before.
    The reality is that some of our allies have a significant 
number of people in Afghanistan. I mentioned the Germans are 
going from 3,500 to 4,500, and the Germans are basically taking 
care of Regional Command (RC) North in Afghanistan. We have a 
significant Italian and Spanish presence in the western part of 
Iraq. The heavy fighting in the south is carried out not just 
by the United States, but by the United Kingdom, by Australia, 
the Canadians, the Dutch, and the Danes. And I would tell you 
that they are in the fight all the way. And it is one of the 
sad results of that that the British, the Dutch, the Canadians 
especially, the Australians--all are taking significant 
casualties, proportionate to the size of the force that they 
have there and proportionate to the size of their forces. So I 
would say, particularly in RC South, where the fighting is the 
heaviest, our allies are playing a really critical role for us 
and are doing so both with skill and great courage. So I would 
say that the trend lines are very positive in this regard.
    Admiral.
    Admiral Mullen. Mr. Hunter, I would only add that in my 
interaction with my counterparts, which is very frequent on 
this issue, and in particular those countries that the 
Secretary mentioned, they really are very committed. And it has 
changed over the last year. When I am in RC South and visiting, 
that kind of feedback is what I get from our people on the 
ground with respect to the Canadians, the Brits, the Aussies. 
And indeed, the French just sent an extra battalion in and 
tragically, not too long after they were there, they lost 10 of 
their soldiers. So there is a significant improvement in my 
view of that. And I think the overall 10,000 troop increase 
there that the Secretary spoke to in his opening statement is 
part of this. We have tried to focus, particularly over the 
last year, year-and-a-half, and I think they have responded. 
And I think they will continue to respond, maybe not as quickly 
as we would like, maybe not with as much force, but clearly 
they are heading in the right direction in many of those 
countries.
    Mr. Hunter. Okay. Thank you, gentlemen.
    Just one last point, Mr. Secretary.
    I have looked at the time line for the replication of Task 
Force ODIN with respect to Afghanistan. There may be some ways 
we can make some improvements on that. I would hope you would 
work with the committee on that, and we might be able to move 
some equipment a little bit quicker. And last, rules of 
engagement, looking at some of the battles that have taken 
place in the south recently, we may need to engage on that a 
little further, in that there are different rules of 
engagement, as you know, with respect to different countries. 
And that provides--at some point provides some issues when you 
have joint operations. And there have been one or two instances 
where there has been a--I think where we have had an issue or 
two arise. But I think we will talk to you about that off 
record.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    John Spratt.
    Mr. Spratt. Mr. Secretary, Admiral Mullen, thank you very 
much for your testimony and for your service.
    I think you both agree that the wars in Iraq and 
Afghanistan have cost us vastly more than anyone ever 
anticipated in dollar terms. And frankly, there is no near-term 
end in sight. By our calculation on the Budget Committee, with 
the help of the Congressional Budget Office (CBO), Iraq and 
Afghanistan, between 2001 and 2009, a 10-year period of time, 
have cost us about $859 billion. We asked CBO if they would 
give us a projection of the next 10 years, assuming a phase 
down to about 75,000 troops in both theaters and a steady state 
by 2013. And the number they gave us for that 10-year period of 
time was $913 billion. Together that is $1.8 trillion, which I 
think you would agree is a lot of money and a consequential 
number. If we spend it here, we have to forego things 
elsewhere.
    We are six years into the engagement in Iraq, and we still 
don't get good numbers. We still don't get budget requests that 
reflect real needs. And this year is a good example. The 
request for the supplemental expenditures needed for Iraq and 
Afghanistan in this year's budget is $70 billion. I think you 
both agree that is a plug. It is not a real number. It is not a 
realistic number. In addition, if you look at the President's 
budget over time, over a five-year period of time, he gave us a 
run-out of the numbers over that period of time; in real 
dollars, the Defense budget, 050, goes down each year from 2009 
through 2013. So my question to you both is, when can we expect 
to get realistic numbers and a realistic budget request?
    I know that to start with, you didn't have a cost base to 
operate on, but we have been there some time now; there ought 
to be some way to extrapolate from past costs, based upon 
present and future plans, and come up with numbers that are a 
lot more realistic and reliable than the numbers we have got. 
Could you provide us those numbers now, or is there any way we 
could obtain those numbers from you in the near future--at 
least a commitment, for the budget requests, that we have more 
realistic numbers than we have had in previous fiscal years?
    Secretary Gates. Mr. Spratt, I think that now that the 
President has made his decisions, in terms of the next step on 
the drawdowns in Iraq and also the reinforcement in 
Afghanistan, that we are now in a position to go back and--I 
couldn't agree with you more; we all knew that the $70 billion 
was basically to get us through March or thereabouts next year. 
And we will come back to you with what we think is the most 
realistic additional number on top of the $70 billion.
    Mr. Spratt. Is that in the near future?
    Secretary Gates. I hope so, sir.
    Mr. Spratt. All right. Thank you very much.
    The Chairman. Mr. Saxton, please.
    Mr. McHugh, I am sorry.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, welcome. Thank you, as always, for your service.
    I am not sure. This may be the last time we see you, 
certainly for this year. But I know I speak for all my 
colleagues; we deeply appreciate your being with this committee 
on any number of occasions, but more importantly for the great 
work you do on behalf of our men and women in uniform.
    Admiral Mullen, the last time you and I had a chance to 
chat, we talked about the kinds of things you mentioned today. 
And I couldn't agree with your comments more; the fact of the 
matter is troop strength is important. We need to focus on it. 
But Afghanistan presents a much more complex picture than just 
force structure. And not just Afghanistan. I don't know how we 
solve Afghanistan or our Nation's and world's problem without 
solving the problem of the Federally Administered Tribal Areas 
(FATA) and Pakistan. The time we did discuss it, Admiral, we 
talked about the Frontier Corps, which remains kind of at the 
focus of addressing those, what I argue are, ungoverned tribal 
areas, not administered tribal areas. But that Corps had a 
rather rocky start, and yet it remains a key part of the hoped-
for solution there. I wonder if you could give me an update on 
how you view the Frontier Corps program.
    Admiral Mullen. If I can, Mr. McHugh, I would just go a 
little broader initially. The Pakistani--because an equally 
important, if not more important, part of that is what the 
Pakistani military is doing, and literally right now. And they 
have had ongoing operations for several months now and will 
continue to do that. And I would capture the shift that their 
leadership has generated. If I look at the forces they have now 
in the Northwest Frontier Provinces and that part of Pakistan, 
a year ago, I think there were 8 or 9 brigades, and there are 
at least 10 more there now. And so there has been a big shift 
and a commitment on the part of the Pakistani military.
    In addition, we do have a focus on the Frontier Corps. We 
are in a position to commence training with them, training the 
trainers, if you will, with more capacity than we have had in 
the past. And I also know that there has been a leadership 
change at the head of the Frontier Corps, which General Kiyani 
made, which is significant. So as I indicated, this isn't going 
to happen quickly, but I think it is headed in the right 
direction. And it is a combination in the long run, I think, of 
both the Pakistan military (Pak Mil), the Frontier Corps, and 
then the development that would come to follow that on the 
heels, to be able to sustain this over the long run.
    Mr. McHugh. I won't ask you, because I don't think it is 
answerable at this point, but I certainly hope that the ever-
changing face of the Pakistan government continues to support 
that initiative and continues to support the Pak Mil. Because I 
agree with you that it is critical to have those folks in there 
trying to govern their own territory.
    I just got back from my ninth trip to Iraq. I had a chance 
to do some visits to the Iraqi special operators training live-
fire demonstration, went out and saw the military police 
training that the Italians are doing I think a fabulous job on, 
et cetera, et cetera. And as we look at the progress in Iraq, 
clearly a key component of that is the training up of the ISF, 
the Iraqi Security Forces. Over 72 percent now, as I 
understand, of their available forces are taking the lead. And 
that has freed up pressure.
    Clearly, in Afghanistan, the announcement to double the 
size of the Afghan National Security Force, I think, is a great 
step in the right direction. But back in June of this year, the 
GAO made a very pointed criticism of our efforts there. And it 
said that they could find no coordinated, detailed plan, U.S. 
plan, to develop the Afghan National Security Forces (ANSF). If 
we are going to have the success in Afghanistan vis-a-vis their 
National Security Forces that we have seen in Iraq and enjoy 
the benefits therefrom, how would you answer that GAO 
criticism? Do you feel that it is unfounded, or have there been 
steps taken since then to address that and to develop a 
coordinated plan to reach that goal of 162,000 by 2010, I 
believe you said?
    Admiral Mullen. Yes, sir. Actually, I would take issue with 
the fact that there is no plan. We have had two--Major General 
Bob Cohen, who is there now, and his predecessor, General Bob 
Durbin--who actually put in place and are executing a very 
robust plan to train both the Army and the police forces.
    Where we are is we are short trainers; we have been short 
trainers, and so in my statement where I talk about, I think, 
forces that go in will be doing both security operations and 
training simultaneously, that is what the Marines are doing in 
the west right now. And they are initial--they are really the 
first force we have had, a significant force we have had, in 
that part of Afghanistan. And we need to generate more 
trainers. There is no question about that.
    From the military standpoint, we have actually made an 
awful lot of progress. We have got a long way to go on the 
police side, which is a combination of both trainers, 
corruption, the kind of background that has existed there for a 
long time, although it is being addressed. While it is not 
perfect, it is an area that has a great deal of focus and will 
continue on the part of the leadership here and our leadership 
there.
    The Chairman. Solomon Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    I have a question for both of the witnesses. And let me say 
thank you so much for your service to our country. And I know 
that we are going through very difficult times, but as we know, 
there is an election coming about in the next few months. I was 
wondering what planning and work has been done to enable the 
next Administration to make its own decisions about force 
levels upon taking office after who wins the Presidency? And 
what limits does the President's recent decision place on force 
level changes? Also, what plans are there to ensure that Iraqi 
security forces are ready and willing to and able to accept 
additional missions and responsibilities beginning sometime in 
February?
    And my last--and I am asking all of these questions because 
the hurricane is getting ready to strike my district as I 
speak. You know, how much influence do nongovernmental 
organizations and former military personnel have in formulating 
United States strategy in Iraq and Afghanistan? And how do 
those organizations and individuals interact with the 
Department of Defense leadership and combatant commanders?
    And one of the reasons I am asking this last portion of the 
question--I have had several calls because of the series of 
stories being written in the Washington Post. And maybe both of 
you can make some comments on my questions, and thank you so 
much.
    Secretary Gates. Mr. Chairman Ortiz, first of all, I think 
that the new President will have a full array of options when 
he enters office, in terms of troop levels in Iraq. As I 
indicated in my opening remarks, I hope that whoever the new 
President is will listen closely to the commanders in the field 
and senior military leaders. I have made the comment before 
that those who worry and are concerned that the military view 
was not taken sufficiently into account at the beginning of the 
war would not neglect it as we get deeper in the end game. But 
there is nothing in place that would constrain the decisions of 
a new President in terms of policies or anything else that a 
new President could not change. So a new President will have 
complete flexibility and constrained only by his view of our 
national security interests.
    In terms of the Iraqi Security Forces, based on 
information, the latest information, that I have from General 
Petraeus, there are now, I think, 164 Iraqi Army battalions in 
the fight, and about 107 of those are either in the lead or 
operating independently at this point. So I think that our view 
is that, particularly when we look at the operations in Basra, 
in Mosul, in Sadr City, and Diyala province and elsewhere, the 
Iraqi Army is acquitting itself very well.
    In terms of the role of the civil side of the conflict and 
their engagement in the Iraq campaign plan, I would tell you 
that I believe since postwar Germany, we have not had a closer 
partnership between a senior military commander and a United 
States ambassador than we have in Baghdad. And Ryan Crocker and 
his team--and he has ambassadorial-level colleagues working on 
the economy and other parts of the civil side of this, and Ryan 
has been an intimate partner and an equal partner with Dave 
Petraeus in putting together the overall campaign plan for 
Iraq. And when it is briefed to the President, it is briefed as 
the Petraeus-Crocker plan.
    So I would say that the civil side has had a significant 
voice in putting together the campaign.
    Admiral.
    Mr. Ortiz. The last portion of my question was the 
influence of nongovernmental organizations and former military 
personnel. How much influence do they have or do they insert on 
the chief of staffs of the military on making their decisions?
    Secretary Gates. Well, I think the honest answer to that is 
that there are more than a few NGOs that are uneasy about a 
relationship--too close a relationship with the military. And I 
think to the degree that their influence--I am sure there is 
some contact, because, after all, they are in the field working 
and interact with our troops and our commanders all the time. 
But I suspect in terms of formal input of their views, I think 
it is more likely to be done through the ambassador and the 
embassy than it is commander.
    Admiral Mullen. The only thing I would offer, in addition, 
with respect to the options for a new President is the full 
range, and we base these recommendations on what I call 
continued assessment. It is ongoing every day. From an 
analytical standpoint and a where we are standpoint, we will be 
ready to make those recommendations based on what is, in fact, 
going on at time that a new President goes into office.
    I am very encouraged by what I see with the ISF. I do not 
just mean what gets reported in. I spend time with them, their 
leadership. They have a skip in their step and a focus on their 
own country that they are thoroughly enthusiastic about right 
now as they have continued to grow and to take the lead.
    And the only thing I would offer with respect to 
specifically what has been written now, written recently--and 
one is, I know, I am quoted in that book. I was not interviewed 
for that book. Second, I think it is important, and I will tell 
you the process, since I have been chairman, that I have been 
able to work up the chain of command and give my very frank 
advice through the Secretary to the President, and that has 
been unimpeded, and I very much appreciate that. And I think 
that is a very important part of our democracy and how the 
system is supposed to work.
    Mr. Ortiz. Again, thank you both for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Afghanistan is not Iraq, but as someone said on television 
recently, progress in Iraq has been wildly successful over the 
past couple of years. And so I am thinking about lessons that 
we can learn from that success in Iraq and see whether they 
might apply to Afghanistan, particularly in the area of 
training and fielding Afghan security forces.
    I heard what the admiral said. We don't have enough 
trainers and some of the other constraints. But I am wondering, 
Mr. Secretary, what are the lessons that you think our country 
can learn from the training, building up, and fielding of 
security forces in Iraq that have application to Afghanistan? 
Is it a situation where it just takes a certain amount of time? 
Are there tribal complexities you have to work through? Is it a 
question of how many--of resources? What are the lessons we can 
learn from what has worked?
    Secretary Gates. The Chairman probably has more insight on 
this than I do, but let me take a quick stab at it and turn to 
him.
    I think that we have learned a lot in both places. I think 
we are applying a lot of lessons that we have learned in Iraq 
to Afghanistan, in terms of overall counterinsurgency strategy, 
as well the successes and lessons learned in terms of training 
the indigenous forces.
    I think that in both places you have to be mindful of the 
tribal and ethnic and sectarian divisions, more so in Iraq, on 
the sectarian side, than in Afghanistan. But I think what is 
important, and one of the most heartening aspects of the 
developments both in Iraq and Afghanistan, is that the national 
army is emerging as a national institution in which people from 
all parts of society are participating and working together. 
And they provide, perhaps, a more immediate model than the more 
slowly developing civilian capacity of both governments.
    And I think that some of the lessons that we have learned 
in Iraq have helped us accelerate the effort in Afghanistan. 
Nobody has ever questioned the ability of the Afghans to fight, 
but training them, planning, logistical support, all of the 
things that go into successful military operations, these are 
lessons that I think have been learned first in Iraq and 
certainly are being applied in Afghanistan.
    Chairman.
    Admiral Mullens. I think there are a great deal of--a great 
number of lessons which apply directly. It took us a while to 
figure out that this was a counterinsurgency and that we had to 
secure the people. That is a direct application.
    In addition to the surge, the turnaround in Anbar, which 
was a tribal turnaround; an ability to employ young Iraqi men, 
Sons of Iraq, to give them another option. Mr. Hunter talks 
about the way we get at this, which has been in terms of the 
combat side of this, the ISR lessons which apply directly. In 
fact, there is an argument that as we move forces out of Iraq, 
we are going to need more ISR there to be the multiplier for 
our Special Forces that it is, which makes capacity a challenge 
both there and in Afghanistan.
    We are not having challenges with the sectarian aspects of 
the Afghan National Army, and yet we have huge challenges with 
the police. And then the similarities in terms of the rest of 
governance and the thing that I worry most about is how poor 
this country is and how long it is going to take to develop it 
in a way that--you know, the resources are not there as they 
are in Iraq. Once the economy gets moving there, it is going to 
be a while before we are there in Afghanistan, among other 
things.
    Secretary Gates. I would just add one quick comment to the 
things the admiral said. Increasing the size of the Afghan Army 
to 122,000, with a float of 12,000 in training, is going to 
cost several billion dollars a year. Overall, Afghan government 
revenues this year will be somewhat under $700 million. This is 
an area, frankly, where we have some money in the budget going 
forward for this, but this is an area where we think some of 
our allies who are not committing troops in Afghanistan can 
contribute to paying for the cost of expanding the Army, the 
Afghan Army.
    Mr. Thornberry. Thank you.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Secretary Gates, it is good to see you here. I hope this is 
not your last time before us, but it may be. We appreciate your 
service so very much and your future service, whatever that is.
    And, Admiral Mullen, thank you also.
    I want to ask you, Admiral, what you said in your written 
statement, and I am one of those who have been asking for some 
time about the requests from our commanders in Afghanistan for 
more troops, and you specifically talk about that. You say--
talk about putting a Marine battalion in Afghanistan this fall 
and another Army brigade. You say these forces by themselves 
will not adequately meet General McKiernan's desire for up to 
three brigades, but they are a good start. You continue, until 
such time that we can provide additional troops, and I cannot 
say at this point when that might be.
    This is consistent what you said before about the 
difficulty of finding additional troops. What does that say, 
this difficulty of finding these troops that have been 
requested for some time by our commanders in Afghanistan--what 
does it say about our ability to respond to other contingencies 
around the world? Press reports in the last day about potential 
leadership changes in North Korea. What does it say?
    Here we are, the greatest nation in the world, and we are 
struggling to respond to a shooting war with the levels of 
troops that you think that you need. What does it say about our 
ability to respond to other contingencies that may require 
large numbers of troops?
    Admiral Mullen. I think it says clearly these are our 
priorities, and they have been our priorities. I have been very 
clear and very consistent on the growing risks globally, and I 
have characterized that in my own risk assessment as 
significant, not--not unable to respond. And it would obviously 
depend on what the crisis was. And, in fact, if we had a 
requirement, and the American people and the President of the 
United States said--the President of the United States said we 
are going to go meet this requirement, there are options to do 
that. But I think the risk is significant, and we need to look 
at how much harder we can press this force.
    Our Air Force and our Navy have been very heavily engaged, 
not as heavily as, clearly, our ground forces, but they have 
been on a pretty good operational tempo, and we have tremendous 
reserve capacity there as well. So it speaks, more than 
anything else, I think, to that at this particular point in 
time.
    General McKiernan has asked for more forces. This does meet 
a significant part of that. What is also really important here 
is the both the battalion--Marine battalion and Army brigade 
are very important, but what is really critical in this is the 
Marine battalion, which goes and relieves the 2/7 Marines, who, 
without relief, with what they have done, you worry about, in 
fact, the insurgents coming back. So to be able to sustain the 
effort in that part of Afghanistan, we have done the same thing 
with coalition and Afghan National Army forces in the south, 
where the Marines went in, and they are being relieved there. 
So, those are really significant steps forward. That said, 
General McKiernan has asked for three or something more 
brigades, and it is going to be a while before we get them 
there.
    Dr. Snyder. Are you satisfied that everything is occurring 
on the ground in Afghanistan; that when we put additional 
troops in--and both Presidential candidates are talking about 
putting additional troops there--that everything is set for 
success? And by that, what I am specifically asking about is 
the issues of coordination between our forces, other forces, 
the folks on the ground doing intel work. It seems to me that 
we could set additional troops up in a chaotic situation for 
more chaos, if we are not working through some of the 
challenges that you have there. What is the status of those 
kinds of challenges?
    Admiral Mullen. I think there are areas where it is working 
very well. I will use, as a very specific example, the Brits 
and the 2/4 Marines have been fighting together over the better 
part of the last year, and their coordination and impact has 
been very significant. There are other challenges, although we 
all recognize, and I think General McKiernan does as well, that 
a campaign plan needs to be adjusted, and he is doing that. And 
I believe, also, that it has got to be a campaign plan that is 
synchronized as best we can with what is going on in Pakistan.
    So all of that is in play as we look at better coordination 
and synchronization. But it is not just there. It has got to go 
across the other part of our interagency and international 
partners there and the other parts of putting us in a position 
to succeed in Afghanistan. And we are not there yet, and there 
is still a lot of work to do with respect to that.
    Secretary Gates. I would just add, in terms of the military 
coordination, one of the steps that we are taking is to name 
General McKiernan not only as the Commander of ISAF, but also 
as commander of U.S. forces in Afghanistan. This will give him 
broader purview and control over the training mission, over the 
range of activities, so that we think that there can be better 
coordination both among American forces, but also between 
American forces and our allies.
    The Chairman. I thank the gentleman.
    Mr. Wilson.
    Mr. Wilson. Mr. Secretary, Admiral, thank you for being 
here today. I recently had, last month, an extraordinary 
opportunity. I appreciate being named by the Chairman to serve 
on a congressional delegation (CODEL) to visit with our allies 
in Romania and Bulgaria. And you mentioned the contributions of 
NATO countries. Nearly 1,000 troops from those two newly 
liberated countries are serving. And in visiting with the 
officials and citizens of those two countries, they were so 
proud of their forces serving in Afghanistan.
    Additionally, it was just extraordinary to visit the joint 
Romanian-American Airbase Mikhail Kogalniceanu (MK), Constanta 
in Romania, and to visit Novo Selo, the joint Bulgarian-
American base. As the cochair, along with Congresswoman Ellen 
Tauscher of the Bulgarian Caucus, it is a dream come true to 
see the relationship that has been developed and the very 
capable American forces working with our allies.
    I want to thank you, as a Member of Congress and a veteran, 
31 years Army Guard, as a parent. My second son just 
completed--Navy guy; I know the admiral will like this--his 
four months' service in Baghdad. It was a very, very uplifting 
experience for him. He followed in the footsteps of my oldest 
son, who was in the Army Guard there for a year. I know 
firsthand from them of the success of our troops.
    Additionally, my National Guard unit, the 218th Brigade, 
just completed a year serving in Afghanistan. I had the 
privilege of visiting with them every three months to find out 
their success in training the Afghan Police and Army units. 
Over the weekend, I went to something that would make you so 
proud, the 132nd Military Police (MP) Company, South Carolina 
Army National Guard, for an awards program on their service in 
east Baghdad, and, indeed, all the troops returned home. It was 
a very inspiring program of wonderful people who are protecting 
America by defeating the terrorists overseas.
    As we look at this--and, Mr. Secretary, you identified the 
increase in the Afghan Army from 82,000 to 122,000, but there 
is not a planned increase with the Afghan Police. Should there 
be? Or what is the status on working with the Afghan Police 
forces?
    Secretary Gates. The Afghan Police are at--I think the 
target for them is 82,000 independently. And I don't think I--I 
am not sure about any plan to increase the size of the Afghan 
Police.
    Admiral Mullen. Everything that has come thus far from 
Afghanistan is that that is about right. That could change over 
time. And, in fact, the target is 82-. And I think there are 
78- or 79- that are actually in place. Our effort is really 
focused on getting them trained. That is the significant next 
step, and we have got a long way to go with respect to that.
    Mr. Wilson. Another question. I was very pleased that a 
constituent of mine, Major General Arnold Fields, who is a 
personal hero of mine, has been named to be the Special 
Inspector General for Afghan Reconstruction. And there has been 
a concern--I was reading about the funding and his ability to 
get that office put together. What is the status on the funding 
for that office?
    Secretary Gates. I think we will have to take that one and 
get back to you.
    [The information referred to was not available at the time 
of printing.]
    Mr. Wilson. And specifically, it has been indicated it was 
authorized $20 million, but only $7 million has been 
appropriated. And I just noticed that. But I ran into General 
Fields in his home county of Hampton, South Carolina. I was 
thrilled to find out that you all had selected him for that 
important position.
    A final question for Secretary Gates. In terms of 
counternarcotics operations, what is the status in Afghanistan?
    Secretary Gates. Well, the Department of Defense and our 
military do not have a direct role in the counternarcotics 
program in Afghanistan. We support the Drug Enforcement 
Administration (DEA), which has a significant presence there.
    There is no question that it is a problem. It is a problem 
getting our allies to take the problem seriously and being 
willing to engage on it. It is kind of a little good news, big 
bad news story. The little good news is the poppy crop is now 
basically limited to seven provinces, thanks in no small part 
to improvements in governance in some of the others.
    According to the United Nations (U.N.), the size of the 
fields under cultivation with poppies has dropped from 197,000 
hectares to 150,000. So it is down 19 percent. The fact is, 
though, that the seven provinces where they are growing the 
poppies more than meets world demand.
    Mr. Wilson. Thank you both for your efforts and leadership.
    The Chairman. Mrs. Tauscher.
    Ms. Tauscher. Thank you. Thank you for being here.
    Tomorrow is the seventh anniversary of one of the darkest 
days in American history, September 11, and many of us will be 
at the Pentagon to honor the people that fell when Flight 77 
hit the Pentagon.
    Just last weekend, I led a bipartisan CODEL to Afghanistan 
and Pakistan, and I am very pleased to see that you--under your 
leadership, Mr. Secretary and Admiral Mullen, that we have been 
able to rationalize a new policy to deal with the fact that the 
seam between Afghanistan and Pakistan, that ungovernable part 
of territory that has been a haven for al Qaeda and the Taliban 
where they have been able to refinance and recruit and retrain, 
is an area that we are taking a very strong look at to make 
sure that we are not only taking fire from Pakistan to 
Afghanistan, where we have troops, but also that the platform 
of Pakistan is not used to plan another attack. And I think 
that is a significant decision by this government, and I am 
very supportive of it.
    But one of the good news of becoming Secretary, Mr. Gates, 
was the fact that we began to change our policy, which had been 
an overreliance on the military, in my opinion, and too much 
hard power. We have to use all the levers of national power 
and, especially, the influence of soft power. Pakistan is in a 
significant economic crisis, a food crisis, a power crisis, and 
my concern is that the new government, both Prime Minister 
Gillani and the new President Mr. Zadari, are facing so many 
different problems. It is not just that they have a country 
that they have only governed about 70 percent of it, where we 
know, perhaps, Osama bin Laden is hiding, and there are a lot 
of dangerous things going on, but they have an economic crisis; 
they have an internal displaced persons crisis. It is a panoply 
of things.
    Can you talk briefly about the soft power options that we 
have, the things that we should be doing to make sure that this 
new government--this very trying situation has all of the 
attention of the American Government--not just our military, 
not just that part of it, but the other things that we should 
be doing?
    Secretary Gates. Well, we are very fortunate in that the 
U.S. has an extraordinary ambassador in Islamabad, Ambassador 
Patterson, and I think she is doing an excellent job of making 
sure that different parts of the American Government can make a 
contribution to the Pakistani--to the challenges in Pakistan 
are there. For example, the Treasury Department has been very 
much engaged with the Pakistanis, in terms of their foreign 
currency reserves and things like that. And I think we have 
other elements of the government involved. It really often is 
heavily dependent on the skills of the ambassador in terms of 
making sure that the tools that we have available are, in fact, 
used.
    I think one of the concerns--and we spoke about this with 
some of the members of the committee before this session--I 
think one of the challenges is putting together a longer-range 
package of assistance for Pakistan on the civilian side on 
economic assistance and developmental assistance, and to help 
them address some of these issues. That is a multiyear package 
that they know that we are in this to help Pakistan over the 
long term. And it isn't just a relationship based on the 
military relationship that is focused on the border with 
Afghanistan; that it is much broader and has the interests of 
the Pakistani people in mind.
    We won an enormous amount--the American military won an 
amazing amount of support among the Pakistani people for the 
response that we provided after the terrible earthquake in 
Pakistan, but that reflected on the whole of the United States. 
And a broader kind of assistance challenge that helps the 
Pakistani people, I think, would not only give their new 
government confidence that we have a long-range plan in mind, 
in terms of partnering with them, but that it is multifaceted, 
and it is not just focused on the military fight. And I know 
that there are some proposals here on the Hill in terms of 
doing some things like that, but I think it really bears 
serious attention.
    Ms. Tauscher. Admiral Mullen, you lead the finest military 
in the world. Thank you for your service and to all the men and 
women in our military and their families that support them. I 
assume you would echo Secretary Gates' remarks that we need to 
have a comprehensive strategy and that part of this needs to be 
economic aid and stability and the civilian side of this.
    Admiral Mullen. I would--the only thing I would add, and 
really for emphasis, is that it is the long-range commitment. 
We were not in Pakistan for 12 years because we sanctioned 
them, and that is part of what we have got to overcome in terms 
of whether they are going to believe we are going to be with 
them for the long haul or not.
    Ms. Tauscher. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. Thank you for your 
service.
    Secretary Gates, it has been a pleasure to work with you 
and have you testifying and Admiral Mullen. Congratulations to 
you and to all the men and women in uniform--my microphone is 
not working? How is that? Is that better? Much better, I can 
tell.
    I also want to congratulate you on the new command 
arrangement, or Humanitarian Assistance Program (HAP) 
arrangement, if you will, for General McKiernan. I think we 
talked about that earlier. I think that is a good move. And I 
want to associate myself with many of the comments of Mrs. 
Tauscher when she talked about soft power. And, certainly, we 
have had discussions about the relationship with Pakistan and 
how important that is, and counterinsurgency operations, and 
the interagency effort, all of which are essential to 
succeeding in Afghanistan.
    But I also know--I have it from a reliable, unimpeachable 
source in Afghanistan that, in his words, it is very kinetic 
there and much more kinetic than Iraq, frankly. We are fighting 
a very tough enemy there, or enemies in Iraq. These are tough 
fighters, and it is a different kind of a fight that our forces 
and our allies are fighting in Afghanistan than we have been in 
Iraq because of the different enemy.
    And so a couple of things. One, I know that the Marines 
are--from their perspective, are in a pretty good position. 
They can sort of attack in any direction out of Kandahar. And I 
know that there is a requirement--we have talked about it 
here--for more forces, and I have heard that the commandant of 
the Marine Corps is interested in the possibility of 
essentially pulling the Marines out of al Anbar, where there is 
very little violence now and concentrating in Afghanistan. So 
to the extent that you can or are willing to comment on that, I 
would like to hear your thoughts on that, more U.S. Marine 
forces in Afghanistan and fewer in Iraq.
    And then, Mr. Secretary, you had talked about when you were 
here some months ago, one of the issues that we have been 
dealing with in Afghanistan is the lack of air, lack of 
helicopters, and part of that support from our allies. So two 
pieces here. We have had some indication from you, both of you 
today, that our NATO allies are doing more. I would like to 
hear a bit more about that and, particularly, some of the 
issues about helicopters we talked about earlier and any 
thoughts you are willing to share on, essentially, moving the 
Marines from Iraq to Afghanistan.
    Secretary Gates. Let me just take on a couple of pieces of 
that and then turn to the admiral.
    First of all, I think the image, certainly from 
Afghanistan, is that it is principally a kinetic fight. In my 
view, this is another inadequacy of our soft power 
capabilities. I said, in some remarks, we are being 
outcommunicated by a guy in a cave. And the reality is you have 
42 nations, countless NGOs, universities, and others in 
Afghanistan building roads, helping with agricultural 
development, a variety of development projects. Many schools 
have opened, and you have heard all the statistics about the 
clinics that have been opened and the schools that have been 
opened and so on. And frankly, we not only--all of us involved, 
not just the United States, involved in Afghanistan and helping 
them, have not done a nearly enough--nearly good enough job in 
communicating, first of all, to the Afghans and, second, to the 
rest of the world, in fact, what is going on in the nonkinetic 
part of the international assistance effort in Afghanistan, 
because it is an extraordinary effort by a huge array of 
countries and organizations.
    With respect to the--I will let the admiral address the 
question about the Marines. But you----
    Mr. Kline. The NATO allies and the ability to provide 
helicopters and forces?
    Secretary Gates. The Canadians had some very significant 
needs if they were going to continue their presence in RC 
South, and that included some helicopters, and the Army, I 
think, did something very creative, and they basically did a 
deal where they let the Canadians have--buy, I think--six 
helicopters that the Army was to receive that were at the front 
of the production line, and then they would pick up those 
helicopters further back in the production line. So there has 
been some increase in helicopters. There is still a shortage of 
helicopters.
    The British and the French have put together an initiative 
in terms of trying to bring together the money for helicopters, 
to retrofit some of the existing helicopters from Europe or to 
lease them from someplace else to send them to Afghanistan. And 
there is some millions of dollars in that fund put together by 
the Brits and the French that other nations have joined in on. 
So they are making a significant effort to try and help us out 
on the helicopters.
    Mr. Kline. Thank you.
    The Chairman. I thank the gentleman.
    Did you have a comment, Admiral?
    Admiral Mullen. Briefly, helicopters are the biggest 
shortfall we have, and it is clearly in support of the ISR 
effort in addition to the attack effort as well. And I see it 
everywhere. In Pakistan, the helo force there, their helo force 
is yet another example. So we need more, generally speaking.
    With respect to the Marines, General Conaway is delighted 
that 2/7 is going to be relieved by the 3/8. The President made 
that decision. There has been no other decision as to where the 
Marines will go. And conditions permitting and recommendations 
so supporting, that certainly could happen in the future. But 
it is not going to happen-- best I can tell, it is not going to 
happen in the very near future.
    The Chairman. Thank you.
    The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Admiral Mullen, and to the people you 
represent, thank you for a lifetime of service to our country. 
We appreciate it very much.
    And, Mr. Secretary, thank you. I hope that whomever 
succeeds you reads very carefully your address at Kansas State 
and follows its admonitions. I think it was the best statement 
of defense posture for this country by any modern Secretary of 
Defense, and I appreciate it very much.
    I know that tomorrow the country will understandably be 
focused on the tragic events that took place seven years ago 
tomorrow. I would like to focus on what took place eight years 
ago today and make an assessment. Eight years ago today, Osama 
bin Laden and his followers were in the midst of planning and 
executing the September 11 attacks. And I think the metric by 
which we have to evaluate our collective effort since 9/11 is 
how much progress we have or have not made--``we'' meaning the 
executive branch and the Congress--toward preventing another 
one.
    My assessment is that the 9/11 attacks succeeded because 
bin Laden and his followers had four elements. They had 
leadership, they had logistics, they had money, and they had 
sanctuary from which they could plan their attacks and execute 
them.
    Obviously, with respect to leadership, there has been some 
decapitation of al Qaeda's capabilities, but its leader, to the 
best of our knowledge, lives today, seven years later.
    With respect to logistics, with respect to money and with 
respect to sanctuary, within the bounds of propriety given the 
public forum in which we sit, Mr. Secretary, I would like for 
you to assess for us how much progress we have made in those 
areas. If bin Laden were planning a second 9/11 this morning, 
where does he stand relative to eight years ago, with respect 
to logistical capabilities, financing capabilities, and the 
ability to enjoy a sanctuary, be it in parts of Pakistan or 
Afghanistan? How are we doing?
    Secretary Gates. Well, I think that the first fact that 
ought to be put on the table is that we are, in fact, 7 years 
from September 11. I was not in government, but I would tell 
you that I don't think very many Americans on September 12th, 
2001, would believe or would have believed or even dared hope 
that in seven years there would not have been a single 
additional attack on the United States, and it is not for the 
lack of those guys trying, because we have caught too many of 
them and uncovered too many plots. That sort of basic 
consideration has to be put on the table.
    What you have described is basically the offensive side. 
There is the defensive side, where I think there have been 
significant improvements, in terms of our capabilities, 
intelligence, law enforcement, coordination, and so forth. With 
respect to the specifics, as you mentioned, below the level of 
Osama bin Laden, there has been a significant degradation of 
the leadership. A number of these people have been killed. They 
know that they are being hunted.
    And with respect to logistics, I think that logistics and 
sanctuary in many respects go together, and that is that when 
they were able to plan 9/11, they not only had sanctuary; they 
had a partner in a government, and they had the assets of that 
government, in terms of communications, logistics support, 
diplomatic relations with other countries, and so on that they 
could draw on as a way to carry out their planning.
    Similarly, they not only had--while they had--and that 
obviously was a benefit of sanctuary as well.
    While they have not been caught, and while they are in 
something of a sanctuary in the western part of Pakistan, the 
reality is that they are on the move most of the time. Their 
ability to stay in place, to conduct training, to do the 
logistics, their ability to communicate with one another is 
dramatically impaired.
    Mr. Andrews. Mr. Secretary, if I may, because my time is 
expiring--again, within the bounds of what is appropriate in 
the public forum, have we given you the tools that you need to 
finish the job and deal with Osama bin Laden?
    Secretary Gates. I think we have the tools, yes, sir.
    Mr. Andrews. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, Admiral Mullen.
    Contrasting Iraq with Afghanistan from the economy 
standpoint, it is easy to see, with the natural resources that 
Iraq has, that you could have a vibrant democracy there if you 
unleash the economic power of that country. On the other hand, 
Afghanistan is limited in natural resources, unless you 
consider rocks a natural resource. And I struggle with the idea 
that a democracy can be maintained in which the economy is, to 
a significant portion, drug-related and the corrosive effects 
that that has.
    I have asked questions that I have not gotten very 
satisfactory answers to. Maybe there are not satisfactory 
answers, but I think we have the ability to deal with the 
sharecropper and tenant farmer who is forced to grow poppies 
and manufacture opium as the payoff. But I don't know the 
impact that the Karzai government is having on everything above 
that, the distribution chain where the real money is being 
made. I think we could find cash crops for those tenant farmers 
and sharecroppers to grow with a proper distribution system 
that they could make a living, but you can't replace all the 
other wealth that is up the food chain that may involve 
druglords and others. The coordination between--and you said it 
earlier; DOD has nothing to do with the drug interdiction, the 
fight against narcotics.
    In advising your successor and others, in terms of how do 
we coordinate this fight, because it is related; the profits 
from the drug trade feed the folks who fight our guys. So I 
think there is enough of a nexus that a focused fight against 
that with DOD and whoever, and not just stovepipe or silo chain 
of command that we have with respect to the fight against drugs 
and the fight against al Qaeda and Taliban--what kind of advice 
are you going to give to your successor, with respect to this 
frustration that the ongoing drug impact has on this country?
    Secretary Gates. First of all, I think that we need to get 
the cooperation of our allies and the understanding that this 
is a problem and that it feeds many of the other problems that 
the alliance and our partners are addressing. From the Afghan 
side, it is in the first instance a matter of governance. In a 
number of provinces where there was some poppy growing going 
on, the appointment of new governors and governance has led to 
significant improvements. In the south, in Regional Command 
South, Helmand Province principally, it is a huge problem.
    It seems to me that you don't get at this problem by going 
at the individual farmer. You go after the labs, after the 
distribution networks, and you go after the ringleaders as it 
were. And I think that may require much more coordinated law 
enforcement and investigative Drug Enforcement Agency kind of 
activity. We need to further build Afghan capabilities. They 
have some capability in this respect. They have trained up 
units for counternarcotics.
    Another issue--and it goes straight to the governance 
issue--is that clearly the narcotics crop feeds corruption. 
Corruption is, as you said, a corrosive--has a corrosive 
impact. I would tell you those are the--exactly the words that 
I used with President Karzai the first time I met with him, in 
terms of the impact on the government.
    So I would say we probably need to find a way for ISAF and 
even the U.S. military to have, perhaps, a great role. But it 
is more in going after the labs and perhaps the distribution 
network. We don't want to be in the position of doing crop 
eradication. My view is you do crop eradication without having 
money and a substitute crop there, you have just recruited 
somebody else for the Taliban.
    Mr. Conaway. I sense, though, that there is still a big 
line of demarcation between those two, between DOD's 
capabilities in the field and DEA, not for lack of trying, but 
just lack of jurisdiction. And you have restructured the 
command structure, with General McKiernan, to try and eliminate 
some of that stuff that was between ISAF and our guys. I am not 
sure a better single commander who is in charge of--bringing 
that under McKiernan may be the answer or something else, but I 
sense a lack of coordination between the two fights that are 
both well intended and trying to get the job done, but maybe 
could do the job better together than they do separately.
    Thank you, sir. I yield back.
    The Chairman. Thank you.
    I will call on Mr. Marshall, but before I do, by 
prearrangement, the Secretary and the admiral must leave at 
high noon, and they will be replaced by Vice Admiral James 
Winnefeld and also by Ambassador Edelman, and we appreciate 
that. You will be able to stay to one o'clock; am I correct on 
that?
    Without taking any additional time, because I want you to 
get out of here at high noon, I will ask your successors who 
testify about the Commander's Emergency Response Program (CERP) 
funds, which seem to be used in some interesting manners. I 
will do that at a later moment, but I just want to alert the 
two of you gentlemen about that.
    Mr. Marshall, you can clean up, and then we will turn the 
witnesses over.
    Mr. Marshall. Thank you, Mr. Chairman.
    Thank you both for the leadership that you provide the 
great men and women who serve under you and serve us so well.
    For some time now, at different hearings, I have raised the 
same question, and I am curious to know whether any action has 
been taken with regard to this particular question. First, with 
regard to Iraq, our history is one of being very effective at 
creating security forces. We have done this a number of times; 
I think about 17 times just in the 20th century alone. And then 
more often than not, those security forces wind up taking over 
in one way or another, either as a result of leadership from a 
charismatic private individual in the government or just 
because the head of the Army just decides, or the head of 
whoever just decides, that the chaos is too much, the political 
disorder is hurting the country, and consequently something 
must be done.
    Part of the thinking that I think we ought to be doing is 
how to coup-proof; how do we help structure things in Iraq, so 
that it is less likely that that will occur? Everybody concedes 
that the civilian side of this is going to evolve much more 
slowly and much more chaotically. Are we planning that? Are we 
structuring it, and is it part of the Structure of Forces 
Agreement (SOFA) conversations? I had a conversation a couple 
of weeks ago with the National Security Advisor. The Iraqi 
National Security Advisor raised this issue. He is actually 
concerned about it. That is one question.
    The second question with regard to the PRTs--I visited my 
first PRT in Afghanistan with Pete Schoomaker in Christmas 
2003, and the only one we had at that time--Gardez. Now we 
have, I think, 28. We are not manning all of them, but I think 
we have 28 in Iraq, and they are structured--at least, the 
American ones are structured essentially the same way that 
Gardez was structured 5 years ago. I know that we are talking 
about change the name, and that, I think, is great. 
``Reconstruction'' assumes there was something there to start 
out with, or it assumes that what was there to start out with 
was desirable and we should reconstruct it, so maybe 
``Provincial Development Teams.''
    But beyond that we ought to change the competition. In five 
years we could have had a PRT university in Kabul to train 
Afghans to do what Americans are doing there. It is far less 
expensive for us. It accomplishes the objective more 
effectively because it is the reach of the Afghan government. 
It looks more like the reach of the Afghan government than just 
the Americans or Italians or whoever is out there. And it is 
easier to do securitywise, since they are Afghan. They don't 
stick out like sore thumbs. And Afghans should be providing 
security and most of the other support in the PRTs. And I am 
wondering whether or not we are moving in the direction of 
trying to make this pretty much an all-Afghan operation?
    While I was there I talked to a couple of military officers 
who had, as clerks, Afghan doctors who chose to be typists for 
us, because the pay is far better than what they can make as 
Afghan doctors. Well, pay them a little bit more than as clerk 
and send them out to the PRTs. They don't need the translators. 
They can simply do the work without the help that Americans 
need to have trying to do that job.
    Secretary Gates. Let me speak to the first and then turn to 
Admiral Mullen. First of all, in terms of military, as you 
suggested, the Iraqi government is very mindful of their own 
history, of the history of Iraq and the military taking over. 
And while I think there is an ongoing debate about whether or 
not the decision to disband the Iraqi Army was a good one back 
at the beginning of the war, it seems to me that one potential 
salutary benefit of that was to break the cycle and the mind-
set of those who had been in the Iraqi Army that the army runs 
the country. And so by basically starting from scratch, what I 
think has been interesting is the role of the Iraqi government. 
In choosing their senior commanders, the prime minister takes a 
personal role in this; and certainly the partnering with us and 
the relationship with our officers and our experience in 
civilian control of the military.
    I think both the Iraqi military and the Iraqi civilians in 
government, at the top levels of that government, are 
appreciative of this problem and are taking steps to make sure 
that the Iraqi military knows its place in that society. And I 
would tell you, on a day-to-day basis, I believe that our 
commanders are basically teaching that lesson to the Iraqi 
commanders with whom they are working.
    With respect to the PRTs, I would tell you it seems to me 
that if I had--if, looking back, I identified a number of the 
issues where I felt we needed to take action, whether it was 
wounded warriors or mine resistant ambush-protected vehicles 
(MRAPs) or ISR or some of these other issues, they became acute 
issues because few, if any, people expected either of these 
wars to go on so long. And so there was not a lot of long-term 
planning.
    It seems to me that the notion that you have of how do you 
train people to participate in these PRTs is something we need 
to take under--how you train indigenous people to do this job 
is important as we look forward and can anticipate other 
countries facing these kinds of developmental problems, and how 
do we partner with them so that at a minimum, I am not sure you 
can have an entirely indigenous PRT, but you can at least have 
an indigenous face on that PRT, and you can have partnerships 
within that PRT with the locals that I think is really 
critical. And I think one of the things worth taking a serious 
look at is how you might build that civilian capacity over time 
in those countries.
    The Chairman. High noon has come. And before we turn to 
pumpkins, we wish to thank you both for your excellent 
testimony, for your excellent service to our country. And we 
wish you success in the days ahead. And, Mr. Secretary, it is a 
pleasure to have you.
    Admiral Mullen, thank you. It is a pleasure to have you, 
sir.
    So if the two gentlemen would assume your seats, Ambassador 
Eric Edelman, Under Secretary of Defense for Policy, and Vice 
Admiral James Winnefeld, the Director of Strategic Planning and 
Policy for the Joint Chiefs of Staff.
    The Chairman. It appears that Mrs. Boyda is next on the 
list. Mrs. Boyda, the lady from Kansas.
    Mrs. Boyda. Thank you very much, Mr. Chairman. I had a--
Joe? Joe? Would you move over a little bit? Thank you very 
much. This seat.
    I had a question, and I was very honored to be on the 
delegation with Chairwoman Tauscher, just coming back from 
Afghanistan and Pakistan, and one of the most purposeful and 
rewarding trips that I have come back with was a, as you can 
well imagine, a renewed understanding of the importance of this 
region and the importance that we get it right.
    And my question is we met with Gilani, the Prime Minister. 
We had great meetings. We met with Kiyani, the general. And 
clearly, I think they get it. They understand that getting 
control of this region on both sides of the Duran Line is 
important to us, and it is important to them. And so, as an 
American and a mom, and very, very worried that we don't have 
another 9/11-type event happen in our country ever, ever again, 
that was heartening.
    Obviously, the economy in Pakistan is of huge importance to 
them. And so when it was my chance to speak with Gilani, and 
just said--Prime Minister Gilani--and said, ``You know, I 
understand that you are dealing with a very, very difficult 
economy here. So am I. In Kansas, I represent an area that the 
median income has gone down time and time again. We have seen 
it go down, not up.''
    And so this is a sensitive question that I am going to be 
asking, but people want to understand what we are doing for 
accountability with the Pakistani government. And having been 
there again, it is easy for me to say they do understand; they 
are in a very, very difficult situation themselves. And yet I 
need to be able to say the Pakistani government is working with 
us, and this is what we are doing. And we are spending a lot of 
money in Pakistan. We are certainly spending a lot of money in 
Afghanistan, but specifically--and I see you shaking your head; 
I know you understand the question, and it is not an easy one. 
It is a nuanced question. But what am I supposed to tell people 
in Kansas about what accountability we are seeking with the 
Pakistani government, with the billions of dollars that we are 
spending there? How do we--I don't think we have held the 
Pakistani government accountable. It is difficult, but how are 
we going to do that in the future?
    Ambassador Edelman. Congressman Boyda, I take it your 
question is largely focused on the Coalition Support Funds that 
we have provided to the government of Pakistan over----
    Mrs. Boyda. Yes. Can you pull up to the mike a little bit?
    Ambassador Edelman [continuing]. Over time. And those 
funds, as you know, are not an assistance program; they are a 
reimbursement program for the costs associated with, in the 
first instance, our operations----
    The Chairman. Would you get a little closer to the 
microphone, please?
    Ambassador Edelman. Yes, sir. Can you hear me now?
    Mrs. Boyda. Thank you.
    Ambassador Edelman. The Coalition Support Fund is a 
reimbursement program that is meant to reimburse the Pakistanis 
for the cost of support, in the first instance, for our 
operations that began at the time of the operations in 
Afghanistan in 2001-2002. Over time, as the situation in the 
FATA became more critical, some of that money was also put to 
the use of supporting the Pakistani operations. We have tried 
over the last few months to make this system both more user 
friendly to the Pakistanis, as well as more accountable.
    You rightly raise a question of accountability. We screen 
first, at the level of the offices of the Defense 
representative in Pakistan, the requests for reimbursement that 
come in. They are then subjected to a second screening at 
Central Command (CENTCOM). They are then screened yet a third 
time----
    Mrs. Boyda. Is this new, or is this something that we have 
been doing?
    Ambassador Edelman. That has been the process in the Office 
of the Comptroller in the Pentagon before payment is actually 
authorized. We have--on the Pakistani side, by the way, they 
have had some complaints about the timeliness of our 
reimbursement, in part because we have held these things up to, 
I think, a fairly intense level of scrutiny. And if you would 
like, for the record, we could give you an answer that goes 
down to much more granularity and detail----
    Mrs. Boyda. Yes, sir, thank you.
    Ambassador Edelman [continuing]. About the kinds of things 
that the Coalition Support Fund has been used to fund, because 
we do have a fair amount of detail.
    [The information referred to can be found in the Appendix 
beginning on page 71.]
    Ambassador Edelman. So we have tried to balance both the 
requirement for accountability and, I think, understandable 
Pakistani interest in timeliness of reimbursement. That has 
become more acute, the latter, for the government of Pakistan, 
because as you know, I was there in June; I think it is only 
more acute now. But the economy in Pakistan has gone from a 
period of seven, eight, nine percent growth per annum to zero 
percent growth over the last year because of the political 
turmoil, because of the unsettled situation in the FATA. There 
has been a drying up of foreign direct investment, because they 
have been hit by increasing fuel and food costs, as other 
nations have. They have had their foreign currency reserves run 
down. So these payments are quite important.
    Mrs. Boyda. Have there been ongoing--with the new 
government that have been coming in, has this issue been raised 
about increased accountability?
    Ambassador Edelman. Yes, ma'am. I mean, this was a subject 
of discussion when I was there, and I also met with Prime 
Minister Gilani and with the Defense Minister and the other 
senior members of the government. It was also, you know, 
discussed by Secretary Gates with Prime Minister Gilani.
    Mrs. Boyda. Again, I understand it is a very fine line, but 
it is one that we still need to continue to push.
    Thank you so much, Mr. Chairman.
    Ambassador Edelman. I don't think, Mrs. Boyda, that the 
authorities in Pakistan are under any illusions that this is 
not an issue for us, but also for you and the members of the 
committee.
    Mrs. Boyda. Thank you.
    The Chairman. I mentioned to Secretary Gates a few moments 
ago that I would raise the issue of CERP funds. The 
Department's understanding of the allowed uses of CERP funds 
seems to have undergone a rather dramatic change since Congress 
first authorized it. The intent of the program was originally 
to meet urgent humanitarian needs in Iraq through small 
projects undertaken at the initiative of brigade and battalion 
commanders; am I correct?
    Ambassador Edelman. Yes, sir.
    The Chairman. Thank you. Your answer was yes.
    Last year, the Department of Defense has used millions of 
CERP dollars to build hotels for foreign visitors, spent 
$900,000 on a mural at the Baghdad International Airport 
(BIAP). And it is, as I understand, this second piece of art 
that CERP funds were used for. I am not sure that the American 
taxpayer would appreciate that, knowing full well that Iraq has 
a lot of money in the bank from oil revenues. And it is my 
understanding that Iraq has announced they are going to build 
the world's largest ferris wheel. And if they have money to 
build the world's largest ferris wheel, why are we funding 
murals and hotels with money that should be used by the local 
battalion commander? This falls in the purview of plans and 
policy, Ambassador.
    Ambassador Edelman. No, you are absolutely right. And I 
will share the stage here quite willingly with Admiral 
Winnefeld, with whom I have been actually involved in 
discussions for some period of weeks about how we provide some 
additional guidance to the field and additional requirements to 
make sure that CERP is appropriately spent.
    If I might, Mr. Chairman, let me first make some general 
observations and then get to some of the specifics about the 
project that you----
    The Chairman. Remember you are talking to the American 
taxpayer.
    Ambassador Edelman. Absolutely. And I think it is a fair 
question, because Iraq does have significant resources. It is 
only fair for both you and the American taxpayer, of whom I am 
also one, by the way, to expect the Iraqis to, you know, step 
up and pay for their own reconstruction.
    The CERP authority remains very important, both in Iraq and 
Afghanistan, because it is a flexible authority that allows the 
tactical and operational commanders to execute projects that 
will help save lives by smoothing out the situation in the area 
of operations. That is the first point I would like to make.
    I would also like to make the point that in Afghanistan 
this is absolutely crucial, because as Secretary Gates said 
earlier in the hearing, unlike Iraq, where there are 
significant resources and there is a discussion to be had about 
the appropriate division of labor and expenditure, in 
Afghanistan, the government has less than $700 million in 
annual revenue. And the CERP money is absolutely crucial for 
our commanders in Afghanistan.
    With regard to the specifics of the project that you 
mentioned, I think there is an important--there is some 
important contextual elements to it. And then I would like to 
mention some adjustments that we are making in the Department 
to take all of this into account. The first is that when the 
project that you mentioned was first undertaken, it was about 
18 months ago. It was at the early stages of the surge. And 
General Odierno, General Petraeus were attempting to get the 
additional aviation brigade that we were putting into country, 
which was a crucial capability to have as part of the surge 
operations, into Baghdad International Airport. It was an area 
that had been--the environs of which had been controlled by 
Shia militias. It was extremely important to get that Jaish al 
Mahdi (JAM) element away from the airport, to be able to build 
public confidence, to be able to provide some employment.
    The mural, for instance, that you mentioned, while I 
understand completely why it could appear to be an 
inappropriate use of the funds, can also, I think, be seen in 
the actual context in which it was expended, as a jobs program, 
a local jobs program to get the people off the street and dry 
up the support for JAM around the airport. The investment that 
was made in that project was a pump primer, if you will, for 
the government of Iraq to come forward with about $45 million 
in reconstruction projects of its own in the BIAP area. And 
over time, as a part of the discussion between the U.S. and the 
government of Iraq and the Iraqi authorities, it has 
developed--it was part of the development of the beginning of 
what we now call I-CERP or Iraqi CERP. And I think the 
government of Iraq has put forward about $300 million that they 
have been running through, executed under our CERP program, but 
projects that they themselves have picked out.
    I think as we move forward with the Iraqis, it is essential 
that they bear the bulk of the burden here. But I think while 
there are still gaps in ministerial capacity and ability to 
execute the spending of their budget, we do not want to take 
away from our commanders the flexibility to be able to do 
things in their area of operations that will make it easier for 
them to operate and ultimately save American lives on the 
battlefield.
    Let me ask if Admiral Winnefeld wants to add something.
    Admiral Winnefeld. Yes, sir, just a few important points 
that I think ought to be made. First of all, I think we should 
reassure the American taxpayer----
    The Chairman. Get a little closer.
    Admiral Winnefeld. We should reassure the American taxpayer 
that this money actually is being spent in our interests. As 
many of you have visited Iraq, you know that this type of 
expenditure is an absolutely critical part of the 
counterinsurgency strategy, the approach that General Petraeus 
and his team have taken.
    I remember speaking to a young Army captain last year in 
Baghdad who told me that force protection is your relationship 
with the community. And I would tell you that CERP is an 
absolutely essential enabler for that type of relationship, 
building the kind of relationship with the community that these 
young captains and majors out in their combat outposts and so 
on are doing every day, day in and day out. And while there may 
be dreamers in Baghdad who are thinking of building a large 
ferris wheel, we still have to do the hot, tired, and dirty 
work every day of bringing stability to that place, and CERP is 
an essential enabler.
    I would point out a couple of numbers. One is that so far, 
this year, 81 percent of the CERP expenditures have been on 
projects less than $500,000. This has been money that has been 
put in the hands of young captains and first lieutenants and 
majors out on the street who are doing the kinds of things that 
are going to enable us to eventually bring them home, which I 
think is absolutely essential.
    I also want to address the point that the Iraqis are making 
an effort to do this kind of work with us. Ambassador Edelman 
mentioned, I think, $270 million in Iraqi CERP that we execute 
that is vetted through the Iraqis to make sure that we doing 
the kinds of projects that they would agree with. But there are 
other sort of virtual CERP programs out there that I think 
represent Iraqi commitment to this program.
    First of all, Iraq has said that they would like to raise 
their level of I-CERP to $750 million. There is also a $550 
million commitment that the Iraqis have made for postkinetic 
reconstruction operations in the five cities where they have 
gone out and taken the initiative to take control of their 
country, and I think that is a significant investment. And they 
have already executed $280 million of that $550 million. And on 
top of that, they have, I believe, $75 million in small loans 
that they are giving to people, micro-type loans, which is 
exactly the kind of thing that our young captains and first 
lieutenants are out there on the street doing.
    So I would summarize by saying that while there have been 
some high-profile cases in the past, as Ambassador Edelman 
points out, if you look behind those high-profile cases, there 
is usually a reason that is there. And most of those high-
expenditure cases have happened in the past. We have no 
projects over $2 million that are currently on the books. And 
we are executing greater oversight, I believe, of that program 
with the Secretary involved. And I have personally looked 
through the Multi-National Coalition-Iraq (MNC-I) and the U.S. 
Army Forces, U.S. Central Command (ARCENT) guidelines for 
execution of CERP, and I am satisfied that they get it. And I 
think that I can tell you that the Chairman, Admiral Mullen, is 
very, very high on the CERP program. He really wants to see it 
continue, and it is very important that we keep it going not 
only in Iraq, but in Afghanistan. And so we would ask for the 
committee's support, sir.
    The Chairman. The issue raises two serious questions, of 
course. Number one is they have a lot of money of their own; 
and number two, the choice of the type of projects that are 
being paid for. I would like to ask, Mr. Secretary, if our 
committee could receive a list of the expenditures of $100,000 
or more within the last year. Would you do that at your 
convenience, please?
    Ambassador Edelman. We will work with our colleagues in the 
Comptroller's Office and with the joint staff to try and get 
you that.
    The Chairman. That would be very, very helpful.
    [The information referred to can be found in the Appendix 
on page 71.]
    Ambassador Edelman. Mr. Chairman, if I might, I mentioned 
that I was going to say that in my answer, but I neglected to 
include it, that Admiral Winnefeld and I have been talking; we 
are trying to balance the tension between allowing, on the one 
hand, the folks in the field to have sufficient flexibility to 
be able to execute their mission, while at the same time 
providing a little closer oversight. And we are looking at 
trying to make sure that we have sufficient not only 
information about projects over a certain level, but also the 
requirements, what kind of monitoring they have in place, and 
the kind of intended benefits that there are. And we are 
working our way--we are not quite there yet, but we are working 
our way toward having some criteria that will allow us to have 
greater oversight here.
    The Chairman. That would be very helpful. When you make 
your decision on the criteria, why don't you forward that along 
with your list; would you, please?
    Ambassador Edelman. Sure.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Roscoe Bartlett.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    I want to apologize for not being able to be here for much 
of the testimony and much of the question and answer, but I 
wanted to have an opportunity to address a concern I have that 
is probably not under the purview of our committee. 
Afghanistan, of course, is a very poor country. I guess a fair 
percentage of their revenues come from agriculture, and the 
biggest agricultural crop is poppies. Poppies are an 
interesting example of something very good and something very 
bad, because from poppies we get what I think is still the 
medical world's best painkiller, morphine, but also regrettably 
get, at the very end of that, heroin, which is one of the worst 
illicit drugs.
    I know that one of our challenges is trying to replace 
poppy agriculture with some other agriculture. I would just 
want to caution that Afghanistan is not the United States. If 
we encourage them to adopt our kind of agriculture, I don't 
think that that will work in Afghanistan. Among the several 
things that I did in a former life, I was a dirt farmer, and so 
I understand a bit about agriculture. We brag that we have the 
most efficient agriculture in the world. That is true from one 
respect: We have more productivity per manhour than any other 
major country in the world. What that means is, of course, that 
we use horrendous amounts of energy to do that. In an 
increasingly energy-deficient world, I don't think that is an 
agriculture that we should be exporting to poor countries.
    One person in 50 in our country feeds more than the other 
49 people because we have a fair amount of food to export. The 
agriculture that we need to be encouraging in countries like 
Afghanistan is subsistence agriculture. We disdain that in this 
country. But I tell you, sirs, there is virtue in labor, and 
people who are gainfully employed are probably not going to be 
terrorists. And so I would hope that we might get the Rodale 
Institute, rather than a land grant college, to counsel the 
Afghans on the type of agriculture that might be most 
beneficial to their country. Do you agree?
    Ambassador Edelman. Congressman Bartlett, no, I don't 
disagree. I mean, obviously, for any type of alternative 
livelihoods effort to be successful in Afghanistan, it has got 
to be agricultural techniques and products that are suitable 
both to the terrain that is being cultivated, but also the 
traditions of agriculture that people have. While there may be 
some things that can be introduced from outside that may be 
helpful, it has got to be essentially consistent with local 
custom and practice, to be taken up by people in the first 
instance. And I can't pretend to be an expert on that. And if 
you like, we would be happy to take for the record a question 
to get our colleagues in the Agency for International 
Development (AID) to get back to you about what, in fact, is 
entailed in the alternative livelihoods program.
    [The information referred to was not available at the time 
of printing.]
    Mr. Bartlett. I think the sustainable agriculture for the 
future is going to be increasingly that agriculture which has 
lesser British Thermal Unit (BTU) inputs and greater calorie 
outputs. If you look at that ratio in our agriculture, we have 
huge amounts of BTUs going in for relatively small amounts of 
calories coming out. That was wonderful when we had oil at $10 
a barrel or less. That is not sustainable. And furthermore, we 
need to employ as many people as we can, because unemployed 
people tend to become--particularly young men--tend to become 
terrorists.
    I know this is a big challenge, and I would hope that when 
we address this challenge, that we don't just presume that the 
agriculture that has made us the envy of the world, in a low-
cost energy world, is the agriculture that necessarily should 
be exported to these other countries.
    Thank you very much, sir, for your service.
    Thank you, Mr. Chairman.
    Mr. Spratt [presiding]. Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you both for being here. I heard that testimony from 
Secretary Gates earlier and Chief Mullen. I just wanted to 
appreciate the fact that you are here to follow up with some of 
us.
    Could you talk a little bit more about the logistics issue? 
A recent article in the paper suggested that, in fact, the 
Iraqis do not really have the backup logistics that is needed--
batteries even, for example--that are needed for communication, 
the kind of air power that--the preparation for that kind of 
air power. How would you assess that? They are saying that it 
is just not getting to them because of corruption, whatever it 
may be. How do you judge that situation?
    Ambassador Edelman. Mrs. Davis, I think we have known for 
some time, as we have been training the Iraqi security forces, 
that getting to the point where we had the enablers, the 
mobility, the logistics part was going to be coming at the 
latter part of this. So I think we are now in the process of 
beginning, really, to get into those issues to enable them to 
perform more independently.
    I would say that if you look at, for instance, the 
operation in Basra, when they went down, there were some 
initial difficulties that they had in executing that, but over 
time they actually were able to move people and, ultimately, 
able to supply them. They need a little bit of help from us in 
that. But my sense is--and I defer to Admiral Winnefeld on 
this--is that as they have moved forward in other operations. 
They are getting better in all these areas, although there is 
still, I think, a long way to go for them to be certainly 
anywhere close to the kind of logistical support that we would 
provide.
    Mrs. Davis of California. Go ahead, sir.
    Admiral Winnefeld. I would just echo what Ambassador 
Edelman said. You know, with 107 of 164 Iraqi battalions in the 
lead, and that is 164 that are in the fight and another 21, I 
believe, that are in training right now, they are on a very 
aggressive profile to get training and equipage and the 
capacity to do the kinds of things that you would expect a 
regular U.S. Army battalion to do. So I don't think it is 
unexpected that there would be issues. But I also know that the 
Multinational Security Transition Command, MNSTC-I, in Iraq is 
very sensitive to this, and they track how the various 
battalions are doing after they have transitioned out. We have 
mobile training teams that are with the various battalions out 
there. We watch very closely. And I think there is a good, 
healthy feedback system when we find deficiencies, and we do 
the best we can to take care of them.
    Mrs. Davis of California. There just seemed to be that kind 
of confidence gap in what we were reporting and what they were 
seeing on the ground. And it is something that we obviously 
need to be very sensitive to.
    Secretary Gates said that we are being outcommunicated, 
essentially, by a guy in a cave earlier. And I wonder if you 
could speak to our strategy, our strategic communications 
strategy, and what you feel needs to be done. I mean, Zawahiri 
was speaking in English to people in Pakistan, suggesting that 
if they got involved with the Americans, that obviously was 
going to be a problem. So I am not sure if this is appropriate, 
necessarily, to you, rather than Department of State, but what 
kind of pressures are you putting on to be sure that our 
communication strategy is a sound one?
    Ambassador Edelman. Well, Mrs. Davis, again, you are 
correct. I mean, in terms of the government as a whole, the 
Department of State overseas has the lead for communications. 
We have a new Under Secretary for Public Diplomacy, Jim 
Glassman, who is bringing, I think, a good deal of energy to 
that effort. And we in Office of the Secretary of Defense (OSD) 
work quite closely with him to provide support for the public 
diplomacy effort, which is, know, largely our strategic 
communications effort overseas, although we have lots of 
activity going on in the Department of Defense that is related 
to all this, because it is supporting operations in the field, 
et cetera.
    Mrs. Davis of California. Can you give it a grade at this 
time? How can we assess it?
    Ambassador Edelman. I don't think I am any easier a grader 
than my boss. I don't think we have done very well on this 
dimension, and we clearly have a long way to go. But we suffer 
from a few weaknesses, but they are weaknesses that I don't 
think we would want to change, which is to say our enemies have 
the luxury of not having to tell the truth. We pay an extremely 
high price if we ever even make a slight error in putting 
forward the facts of a case.
    And so I think we do place a high premium on getting the 
facts, getting the information. And in today's modern world of 
electronic communication, where news moves instantaneously, we 
frequently find ourselves sort of, you know, catching up.
    We also face some legal hurdles, in terms of dealing with 
things like our adversaries' use of the Internet, which is a 
sort of public domain, and it is sometimes not that easy for us 
to operate, because sometimes these things are hosted in the 
United States of America.
    So we face, I think, an awful lot of challenges, and I 
think we have got a long way to go. I think, in specific, in 
Afghanistan, we have made some changes in ISAF to try to 
provide greater support to the public effort, get a 
spokesperson out there. But, you know, I would concede that I 
think we have a long way to go.
    Admiral Winnefeld. I would second that and say that it is 
one of the most, if not the most, difficult thing that we do, 
our strategic communications. So it is a very insightful 
question. And the doctrine folks inside the U.S. military 
realize this, and are struggling with how we can train people 
to do this better and get that out into the field.
    At operational-level exercises, I have had two recently, 
one under NATO and one under the U.S. command, where it was 
very clear to me that there was huge emphasis, from the 
trainers to the training audience, that we have to do this 
better and to show us techniques on how to do it. And to do it 
right, you have to have deliberate messages, you have to have 
the ability to craft reactive messages, and you have to have a 
feedback mechanism coming back up from the chain, to see if 
your messages are working or not. And I would say that, echoing 
what Ambassador Edelman says, is we are handicapped.
    One of the fundamental principles of fourth-generation 
warfare is that they will use our Western civilization freedoms 
and culture against us. And so what do we do when we have an 
incident on the ground? We want to make sure that we get the 
facts right before we put the facts out. And there is a built-
in delay where you are vulnerable for somebody who doesn't have 
to get the facts right to beat you to the punch. And we 
struggle with this every day. But I think I would rather be on 
our side of it and get the facts as best we can, and we still 
don't always get them right. We work very hard at that, but try 
as we might, it doesn't always happen.
    I will tell you that General Dempsey has recently asked if 
ISAF and the Office of Defense Representative Pakistan (ODRP) 
in Pakistan and also Combined Joint Task Force (CJTF) 101 will 
come together to try to form some strategic communications 
cells, so we can do a better job of this. And I think that 
bringing General McKiernan in in a more overarching role with 
the streamlined change of command we are going to have will 
only help that problem.
    Mrs. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Shea-Porter, please.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    Admiral, I had a comment. You said when they were taking 
about the ferris wheel and the murals that it could appear to 
be an inappropriate use of funds, but actually it was a jobs 
project. And when I think about jobs projects in a place like 
Iraq, I think about schools, health clinics, infrastructure. 
Could you explain why it would be more useful to build a mural 
than a school?
    Admiral Winnefeld. I would not tell you it is more useful 
to build a mural than a school. I will only repeat what 
Ambassador Edelman--the point that he made. That is the point 
behind some of these seemingly frivolous applications that 
there usually is an application that is trying to accomplish 
our objectives. And in this case Jaish al Mahdi had just been 
evicted, essentially, in a very hard-fought struggle.
    Ms. Shea-Porter. Okay. Thank you. I only have five minutes, 
so I am going to have a series of questions. But I understand 
where you are going. But I think that the American public would 
feel a lot more comfortable if we gave jobs projects that we 
had to the Iraqis, and they built that. So we could still have 
the same psychological win by helping the people there.
    But I am very concerned, as are my constituents, and I 
think all Americans, about the cost and the taxpayer dollars 
that are going into Iraq. And I wanted to ask you a couple 
questions and, also, the ambassador. First of all, who are we 
buying our fuel from right now for the U.S. military in Iraq, 
and how much are we paying?
    Admiral Winnefeld. I would have to take that question for 
the record, ma'am.
    Ms. Shea-Porter. Okay. I would appreciate if you would get 
back to us on that.
    [The information referred to can be found in the Appendix 
beginning on page 72.]
    Ms. Shea-Porter. And all the money missing that we have not 
had the oversight, and there has been, you know, money sent to 
Iraq missing, any idea what that figure is now? I have heard 
other numbers, but I wonder if you could----
    Ambassador Edelman. I am not sure specifically what part of 
the money you are talking about. There was an issue in the 
Ministry of Defense a few years back having to do with some 
contracts let to a third country that appeared to have had some 
corrupt element to it, which is one reason why we have moved 
increasingly to providing some of the military equipment that 
Iraq is purchasing with their own Iraqi money through our 
foreign military sales (FMS) system, which provides greater 
accountability and oversight.
    Ms. Shea-Porter. I recall about 6.9 billion, I think, that 
was under indictment right now for the lack of oversight.
    Ambassador Edelman. In the Ministry of Defense?
    Ms. Shea-Porter. Well, actually in our own Department of 
Defense that we had a hearing on this. And it was money missing 
that, because we didn't do oversight, you know, it was stolen 
from us----
    Ambassador Edelman. This is the contracting you are talking 
about?
    Ms. Shea-Porter. Yes, I am talking about the contracting.
    Ambassador Edelman. The contracting issue that General 
Kicklighter had been investigating----
    Ms. Shea-Porter. Right.
    Ambassador Edelman [continuing]. And is subject to a 
Justice Department investigation.
    Ms. Shea-Porter. Right. And the fact that we had people in 
the Department of Defense tell us that they didn't have the 
accountants to do proper accounting--and I found that very, 
very disturbing. We also heard people from the Department of 
Defense come here and tell us that they were--there were going 
to be Iraqi products on our shelves--this was a while back--
that the factories would be coming on line, and we would see 
that. And I wondered: Is that happening?
    Ambassador Edelman. I think that may have been my colleague 
in Acquisition, Technology and Logistics (AT&L) on the other 
side of the house, Paul Brinkley, who has been involved in 
doing that. And I will have to take that for the record and get 
back to you.
    [The information referred to can be found in the Appendix 
beginning on page 72.]
    Ms. Shea-Porter. Okay. Because I haven't seen any Iraqi 
products. I did see--when I was in Iraq in March, I was given a 
tray, and the tray was in Arabic on the front, but on the back 
was stamped all over it ``Made in China.''
    And I also know that Iraq bought some weapons from China, 
and my question to you is: Is Iraq shopping in China, instead 
of the United States? And these are questions that are coming 
from Main Street, USA, wondering why our U.S. tax dollars are 
going there and what Iraq is doing in terms of, you know, what 
they do with the money, and why can't we make the trays, and 
why can't they purchase from us?
    Ambassador Edelman. Well, I think the Iraqis are a 
sovereign country, and obviously they can buy from whoever they 
want. It is in our interest, we believe, to have the Iraqi 
military have a close operational relationship with our 
military and be able to operate together with ours and, 
therefore, to purchase U.S. military goods and services, and 
that is one reason why we have encouraged them to use the FMS 
system. I think we have been fairly successful, because they 
have put, I think, over close to 3 billion, I think, now, or 
maybe 4 billion into the FMS system. We can get you the exact 
amount.
    Ms. Shea-Porter. I would like to point out you are right; 
they are a sovereign country. But you just said they can buy 
from whoever they wish, but I would submit that these are 
American dollars, and we have robbed America's Main Streets in 
order to pay for so many of these programs, and I don't think 
that they should just buy from whoever they wish. Perhaps they 
should have thought about the American taxpayers.
    Ambassador Edelman. They can buy from whoever they wish 
with money out of their national funds, not with our money.
    Ms. Shea-Porter. Their surplus and our deficit. I obviously 
have great concerns about the spending there. And I think the 
ferris wheel and the mural are small but significant comments 
about what went wrong in Iraq. And I thank you. And I thank you 
for your service.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    First of all, Ambassador Edelman, I just wanted to at least 
be on record complimenting Secretary Gates' announcement at the 
end of his testimony that the tanker decision has been put off 
to the next Administration. Again, I think the reasons he 
stated clearly show that he had the public interest in mind. 
And please convey to him, at least by hearsay, my compliments.
    Ambassador Edelman. I will do that.
    Mr. Courtney. Last April, when General Petraeus and 
Ambassador Crocker made the rounds before the House and Senate 
committees, Senator Biden asked sort of the point-blank 
question to Ambassador Crocker: Mr. Ambassador, is al Qaeda a 
greater threat to U.S. interests in Iraq or in the Afghan-
Pakistan border region? And Mr. Crocker's answer was, ``I would 
pick al Qaeda in the Pakistan-Afghanistan border area.'' Again, 
coming from the ambassador in Iraq, that is a pretty powerful 
statement.
    And listening to Admiral Mullen today, talking about the 
gravity of the situation in Afghanistan, I mean, the term that 
he used is that we are, quote, ``running out of time.'' Trying 
to sort of get both of those sort of contextual statements in 
sync with the President's announcement that we are not going 
to--we are going to send one Marine battalion in November, two 
months from now, and then an Army brigade in February, I mean, 
are we moving too slowly? Just, it is hard to see how, when we 
have identified the larger threat in one place, and time is of 
the essence, how that time frame works.
    Ambassador Edelman. Congressman, I would--one thing I would 
say is that, first, Ryan Crocker is well situated to make that 
comment, because he had not only been ambassador to Iraq; he 
had also been ambassador to Pakistan, so he knows both sides of 
the equation.
    I think, frankly, it would have been an interesting 
question, if you had asked him at the very beginning of his 
tour whether he would have made the same statement then. I am 
not sure he would have. There was a period of time when we knew 
al Qaeda in Iraq was actively plotting against the homeland. 
There was a period of time when Zawahiri and bin Laden and 
others had said that Iraq was the central front for them in 
their struggle against the infidels and crusaders. I think that 
has changed over time, in part because of our success in Iraq 
and degrading al Qaeda in Iraq, making them a less effective 
organization. We have seen indications that they are now moving 
their effort away from Iraq and toward Pakistan, Afghanistan. 
And so some of that has been, I think, the inevitable 
adjustment that takes place in war between two contending 
adversaries.
    Mr. Courtney. I will stipulate to that. But I guess the 
question, though, is today in September, and given the timeline 
that the President--I mean, that is really the question that 
you have to figure out is are we doing what we need to do?
    Ambassador Edelman. Well, first, I think we have already 
been increasing, over the last couple of years, the number of 
troops we have in Afghanistan, both because we have increased 
the presence of the NATO allies in ISAF. I think we have got 
about 20,000 more troops total in Afghanistan today than we did 
2 years ago. That is before the President's announcements of 
the additional forces. We started to make adjustments, as 
Secretary Gates, I think, said in his opening statement, in 
2006 and 2007, as we dealt with the increase in violence and 
the recovery that the Taliban was making from the pretty 
significant defeat that had been inflicted on them in 2001-
2002.
    Again, I think you need to pull back and put this into a 
larger, you know, historical context. In Afghanistan, as 
Secretary Gates has said on a couple of occasions, we have been 
engaged in a project that essentially is both countercultural 
and counterhistorical to Afghan experience. We have created a 
central government there, for the first time, that is trying to 
extend its writ. As we have had more success politically with 
the first constitution, the first elected parliament, the first 
elected president, that has, of course, created a political 
circumstance in which the Taliban has not only had some time to 
recuperate, but now has a greater incentive to try and disrupt 
that effort.
    Mr. Courtney. We are about to run out of time. Again, maybe 
we can follow up afterwards, but, you know, again, just looking 
at the weather and the fact that the winter is coming on, and 
obviously that has been a time for the Taliban to regroup--
again, I am just very concerned that this plan really doesn't 
match up with the needs. And, you know, talking about the need 
to win hearts and minds with communication campaigns, I mean, 
relying on air strikes for security, I think, is the worst way 
for us to win hearts and minds. And clearly, the collateral 
damage to civilians by not having enough boots on the ground in 
Afghanistan, I mean, it has a spillover, in terms of the damage 
that we are doing to our public image there. And I--we can, as 
I said, maybe follow up later.
    Thank you, Mr. Chairman.
    Ambassador Edelman. Congressman, I agree with that.
    The Chairman. Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    Thank you, gentlemen, very much for your service.
    How do you intend to develop a robust strategy in 
Afghanistan against al Qaeda and the Taliban that involves, you 
know, the desperate need for additional soft power resources, 
Special Operations personnel, when the White House has had 
tunnel vision, a tunnel vision focus on Iraq for years and 
years and years now? All of the resources that the American 
people have put forward, the vast majority of them have gone to 
Iraq and not Afghanistan. Meanwhile, the global threat to our 
national security seems to have hardened. Certainly, the 
Taliban and al Qaeda and the extremist threat at the border of 
Afghanistan and Pakistan has regenerated. We are now facing our 
deadliest year in Afghanistan. Osama bin Laden is still out 
there. The strategic depth and readiness of our military has 
been degraded over the objections of many respected American 
military leaders in the chain of command. And while Secretary 
Gates has been a breath of fresh air, he has had to spend a 
great deal of time prodding and pushing our allies, cajoling 
them to join our effort in Afghanistan to provide the resources 
that they really need to provide under NATO. They have been 
turned off by the Bush-Cheney approach in Iraq, and that has 
had very severe consequences for American military personnel 
and the American people. And now Admiral Mullen testifies today 
that the commanding officer in Afghanistan, General McKiernan, 
has now made a certain request for troops, and the Bush-Cheney 
Administration is not able to meet that request.
    I would like to know why hasn't the President and the Vice 
President been willing or able to get our national security 
priorities straight? And go back to the original question: How 
do we develop a successful strategy in Afghanistan against al 
Qaeda and Taliban in the face of those challenges?
    Ambassador Edelman. Well, Ms. Castor, I think, as the 
Secretary said in his testimony, the challenges that we face in 
Iraq and Afghanistan are somewhat different, both because of 
the composition of the adversary and the geopolitical 
circumstances of the two countries. I think the 
Administration's view has been that with the situation in Iraq 
in 2005-2006, particularly with the escalation of violence in 
2006 and into the beginning of 2007, that not devoting 
attention to a country that sits on a lot of the world's oil 
reserves in the middle of a very volatile region was not an 
acceptable risk to take, which is why so much of the effort 
went to Iraq. But that is not to say we weren't taking into 
account the challenges we faced in Afghanistan. As I said a 
moment ago, we, in the last two years, have pretty dramatically 
increased the number of troops.
    Ms. Castor. And yet, Mr. Ambassador, we are not able to 
meet, even today, the request of General McKiernan. After all 
of those resources and all of the troop levels still today, we 
still have about 150,000 troops in Iraq; is that correct? And 
the American troops in Iraq, 19,000, and then we have--I was 
trying to get the latest information from all the testimony--
45,000 NATO troops, which includes about 15,000 American 
troops. So it is still that tunnel vision approach. And I 
don't--how do we develop this strategy going forward in 
Afghanistan, if we cannot even meet General McKiernan's 
request, his expressed need to address our national security 
situation in Afghanistan?
    Admiral Winnefeld. It is very clear that, first of all, 
there has been a balance of risk assessment against Iraq--
between Iraq and Afghanistan. And I think the Secretary and the 
Chairman made it very clear how they, on the advice of two 
military commanders in the field--an overall regional 
commander, General Dempsey, the Joint Chiefs, came together 
through a very transparent and healthy process, I would say, to 
the conclusion that it was time to accept a little more risk in 
Iraq and move a brigade over into Afghanistan. And that sounds 
like a very mechanical and easy thing to do, but it actually 
involves six months of training. And we really came up against 
the last minute for when we could determine that that unit 
could switch from going to Iraq to Afghanistan, because you 
have to train them for completely different environments. So 
mechanically, it is perhaps not as easy as it sounds.
    And I would tell you that, regarding strategy in 
Afghanistan, the first thing, I think, that Admiral Mullen 
would reply is that you can't have a strategy in Afghanistan 
without one in Pakistan. And I believe in his written, if not 
verbal, statement he mentioned that he is--and we are in the 
process of developing a comprehensive strategy that would 
address both Afghanistan and Pakistan in the same context, 
rather than looking at them in a stovepipe fashion, which I 
think is a very healthy move.
    And I can also assure you that in the interagency dialogue 
that Ambassador Edelman and I each participated in, that there 
is a great deal of discussion about Afghanistan, probably more 
now than there is about Iraq. So I think that we are shifting 
our center of gravity slowly but surely in that direction, 
based on the risk assessments of the commanders in the field.
    Ms. Castor. Thank you.
    The Chairman. Ms. Giffords, please.
    Ms. Giffords. Thank you, Mr. Chairman.
    And I want to thank the panelists today for being here, 
hanging in there with the rest of us. I appreciate the 
opportunity.
    I am concerned, as we look to a post-9/11 world, how we are 
really preparing the men and women that are working to counter 
any sort of future terrorist attacks--the language skills, the 
cultural training, the historical training, all of that 
information which we understand to be really critical. Military 
skills are important, but the cultural awareness and the 
language proficiency, I think, are really key.
    We have had a lot of people come before this committee and 
talk about the importance of this, and I am very pleased to 
know that a lot of this training is happening at Fort Huachuca 
in my district. And we are proud of the training, particularly 
in Arabic and Farsi. But unfortunately, only about 3,500 
Regular Army officers were actually trained last year among the 
500,000 active duty personnel.
    And so my question, which was for Secretary Gates--and he 
testified before this committee in February; he said that for 
all forces preparing for regular warfare, training and advising 
missions, humanitarian efforts, security and stabilizing 
operations, that language and cultural proficiency was 
essential. So could someone please address what the Army is 
doing to fully train personnel this year, in respects to what 
was accomplished last year and as we move forward?
    Ambassador Edelman. Well, I will let Admiral Winnefeld 
speak to the specific, but just if I could make a couple of 
quick observations, Ms. Giffords. Number one, I agree, 
particularly as a career Foreign Service officer, that the 
language and cultural skills are crucial. I can give you one 
anecdotal piece of evidence, which is that my son, who is a 
specialist in the Army at Fort Lewis, has just completed 11 
months of intensive Arabic training.
    And so I know from personal experience that we are doing a 
lot more. My colleague David Chu, the Under Secretary for 
Personnel and Readiness, has been overseeing an initiative 
department-wide to increase our facility and skill with 
languages. But I will let Admiral Winnefeld talk to the 
specifics.
    Admiral Winnefeld. I think there is hardly a military 
officer out there today who would disagree with what you are 
saying. It is terribly important that we get better at this. 
And I can tell you from personal experience that--both on the 
positive side and the negative side--that language skills are 
extremely valuable. My broken and limited French was very 
valuable to me in NATO. My extremely small smattering of Arabic 
was very useful to me when I was deployed to the Arabian Gulf. 
And I can tell you that our sailors and Marines that 
occasionally deploy down to West Africa could certainly benefit 
from an understanding of Portuguese in some of the countries 
down there that speak Portuguese and, certainly, French and the 
like. So there is no question that it is a very, very important 
skill that we need get better at.
    In terms of being able to give you exact specifics of what 
the Army and the other services, for that matter, are doing, I 
know the will is there, and I know that we are doing more, and 
I believe that either this afternoon or yesterday our director 
for manpower on the Joint Staff, General Patton, is up on the 
Hill speaking to--I thought it was the House Armed Services 
Committee (HASC), but it may be the Senate Armed Services 
Committee (SASC)--on exactly this issue. So we do have a rich 
bit of information we can get to you, and I would like to offer 
to provide that to you for the record.
    Ms. Giffords. I think we would appreciate seeing that.
    [The information referred to was not available at the time 
of printing.]
    Ms. Giffords. As I look to the transition which happened 
between Iraq and Afghanistan, I realize, as well, that there is 
some core languages, from Dari to Pashto, Uzbek, Turkmen, that 
are not included in the cultural and the language training. And 
not just for the language side; there is also a cultural 
component that goes with that. So I am curious whether or not, 
as you all work toward transitioning, are there plans in place 
to incorporate these other additional languages?
    Admiral Winnefeld. I believe there are, but I would want to 
again refer to the record, because our Manpower and Personnel 
Director is going to be talking about that this week on the 
Hill. It is a very good question, and I believe he has got some 
good answers.
    Ms. Giffords. Yes.
    Ambassador Edelman. Ms. Giffords, if I could just add one 
thing, which is, I think, above and beyond the requirements for 
training: There is a broader issue for the Nation, which is, 
sort of, our kind of intellectual capital in a lot of these 
areas--that is to say in language and in the cultural 
awareness. I think you know, probably, about the Human Terrain 
project which we have ongoing, which helps bring to bear some 
outside academic expertise. But it is hard to come by, because 
there are some disciplines in the academy where people feel a 
little bit uncomfortable about working with the U.S. military.
    The Secretary has been trying to deal with that by the 
Minerva Initiative that he has announced, which is a 
partnership, public-private partnership, between the Department 
and universities to try and stimulate research in areas that 
are of interest and future importance to the Department and in 
languages like Chinese and Arabic that are particularly 
difficult and require a lot of time and investment, personal 
investment, to learn. So that is, I think, an ongoing challenge 
for the Nation, much as Russian was during the Cold War era.
    Ms. Giffords. Thank you, Mr. Chairman.
    The Chairman. Mr. Taylor, the gentleman from Mississippi.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank you gentlemen for being here for three 
hours.
    Three questions. Hopefully we can answer it now or, if not, 
I would like for the record. The Sons of Iraq program, at what 
point does the Iraqi Government start paying that bill? And 
what assurances do we have that that is going to happen and 
that these people who are used to getting $300 a month don't 
one month not get paid and decide to start shooting at 
Americans again?
    Ambassador Edelman. It is a good question, Congressman 
Taylor, and I can give you the answer. I believe it was just 
yesterday or the day before--Prime Minister Maliki signed a 
decree. They are taking over the responsibility on October 1 
for all the Sons of Iraq, and the first payday, I believe, is 
supposed to be the 1st of November.
    Mr. Taylor. Okay.
    Admiral Winnefeld. And, just to add, I think it is a phased 
program. My recollection is that they are going to start in 
Baghdad with about 54,000, and they will be drawn into the 
Iraqi Army pay system. And then it will be decided the 
disposition of sending them to vocational training or actually 
inducting them into the Iraqi Security Forces. And then, as the 
program matures, we see if it is actually executed, which is an 
excellent question, further on down the line inducting the 
others into the same system. So it will be a phased program, 
but they have committed to doing it, and we are certainly 
hopeful it will happen.
    Mr. Taylor. Second question. It is my hunch, but I 
certainly would seek your guidance, that we are not paying rent 
for things like Camp Victory, that we are not paying rent on 
the Water Palace, that we are not paying rent on any of our 
installations. I would think it is just the determination our 
government made that we have conquered this nation, and for the 
time being we are going to take these places.
    Using that analogy, again, correct me if I am wrong, but 
using that analogy, in that a huge expense of the war in Iraq 
is fuel and that up until around Easter of 2005, the Kuwaitis 
were footing the bill for the fuel and sometime in that time 
frame they started charging us, giving us some still and then 
charging us some; and, again, they have been great partners in 
this, and so I can understand their need for some revenue, but 
to what extent do you, Mr. Ambassador, tell the Iraqis that one 
of the greatest contributions they can make toward this effort 
is something that they have in abundance that happens to be 
very expensive to the American military, and that is their 
fuel?
    Ambassador Edelman. I think it was Ms. Shea-Porter who 
asked the question about the fuel, and we will get back to you, 
Mr. Taylor, with all the details on that. I don't have them for 
you right now.
    Mr. Taylor. As a further follow-up to Ms. Shea-Porter's 
question, I would be curious what percentage of the fuel is 
actually purchased in Iraq, what percentage comes from Kuwait 
and other places.
    Ambassador Edelman. I think there is still quite a bit that 
has to come from Kuwait.
    Admiral Winnefeld. I think it has to come from--largely 
from outside the country because of Iraq's limitations on their 
refining capacity.
    Mr. Taylor. Well, sir, it is my understanding that the 
Iraqis had about a $80 billion surplus this year, mostly from 
the export of oil. So, again, I think it is a fair question to 
ask.
    Admiral Winnefeld. The difference between the question is 
paying for it and actually producing it, and we have taken for 
the record the paying for question. But I think in terms of 
producing it, they just don't have the refining capacity.
    Mr. Taylor. Okay. Well, again, they could contribute the 
funds toward the fuel.
    The third one, Admiral, and this is within the military, 
for the 19 years I have been lucky enough to serve on this 
committee, I have heard the expression ``We train as we fight. 
We train as we fight.'' One of the important programs that this 
committee has taken the lead on funding was the mine-resistant 
vehicles. And somewhere about now we ought to have about 12,000 
of them in theater, with several thousand more on the way. It 
is my understanding that almost none of our training 
installations have sufficient MRAPs for the soldiers, sailors, 
airmen, Marines to actually train on before they get to Iraq, 
that the first time that most people see an MRAP is in Kuwait, 
just days before they are going to cross the berm and be in a 
real war zone.
    What is the timeline to get MRAPs of sufficient numbers to 
places like Camp Shelby, Fort Hood, the big base in Louisiana? 
I understand there is some at the National Training Center, but 
a fairly small percentage of the troops actually cycle through 
the National Training Center before they get to Iraq. So what 
is the goal to have sufficient number of MRAPs at the training 
installations to where they become a part of the training 
regimen?
    Admiral Winnefeld. Sir, that is a very good question. I 
think the initial priority, of course, has been to get them to 
Iraq.
    Mr. Taylor. I understand. But we are getting to the point 
now where the manufacturers are saying, ``hey, I don't have 
enough work,'' which tells me that they have the capacity to 
build enough to get to the training installations.
    Admiral Winnefeld. Intuitively, I would tell you that that 
is going to eventually happen, once we fill out our needs not 
only in Iraq, but elsewhere. And I would like to take that for 
the record, because I know we can give you an answer on that.
    Mr. Taylor. And when should I expect an answer on that one?
    Admiral Winnefeld. I think we can get that to you very 
quickly, sir.
    Mr. Taylor. A week?
    Admiral Winnefeld. Yes, sir, probably about a week.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Taylor. Thank you very much.
    The Chairman. Thank you so much. The witching hour has 
come, and Mr. Spratt has a follow-up.
    Mr. Spratt. This issue has been touched upon, but I would 
like to put it to you for a direct response. The stated purpose 
of the surge was to open up a window of opportunity for the 
civil government, the Maliki government, to work out an agenda 
of reconciliation items--basically, among other things, 
assuring the Sunnis of accommodation within the polity and 
government and economy of Iraq. It now appears that the Maliki 
government is hell-bent upon disbanding the Sons of Iraq, some 
100,000 of them who played a key role in the surge, without 
effectively assuring them of employment either in the 
government or in the military or elsewhere in the economy or 
giving them any kind of transition. Or even worse, some would 
suspect that they may be arrested, and some are being 
investigated. It is not a good turn of affairs.
    Would you please describe for us what the State Department 
and Pentagon propose to do to prevent this potential situation, 
which could be--could reverse the gains that have been achieved 
in the surge?
    Ambassador Edelman. Congressman Spratt, I think Admiral 
Winnefeld and I, a minute ago, addressed, to Congressman 
Taylor's question, a response that indicated that the Maliki 
government has signed a decree and is taking over the 
management of the Sons of Iraq as of October 1, first pay date 
November 1. There has already been, I think, some 20,000 who 
have already been employed in the security services. Others 
have been given other jobs.
    I think there is concern, and I think it is a concern that 
underpins your question, about some events that took place in 
Diyala a couple of weeks back, which is, I think, a good cause 
for concern. But overall, I think the Prime Minister has, in 
fact, reached out to his Sunni colleagues. The Tawafuq bloc has 
come back into the government. He has actually worked quite 
well, given his past history with Vice President Tariq al 
Hashemi. So while it is a concern that we continue to monitor 
and watch, and I can promise you that General Petraeus and soon 
General Odierno pay close attention to this, I think right now 
we, at least for the moment, appear to be on a positive 
trajectory.
    Admiral Winnefeld. Yes, sir. And I would only add whatever 
we can pull the string on for those incidents, I think that 
caused concern over the last week or so; they were isolated. 
They were reported in the Arab press, which tends to want to 
foment concern about that. And it wouldn't be Iraq if there 
were not concern over whether this is going to actually pan 
out. But the Maliki government----
    Chairman Spratt. Are you two testifying that this matter is 
being resolved, worked out; it is being addressed?
    Admiral Winnefeld. It is our understanding that the Maliki 
government has committed to doing this, and that they will 
either induct them into the Iraqi Security Forces or provide 
some kind of vocational training or some other mechanism. But 
our understanding at the moment is that they have committed, 
over the course of time, to assuming a responsibility for the 
Sons of Iraq, including paying them.
    The Chairman. I thank the gentlemen. And Ambassador, 
Admiral, thank you so much for your testimony. And we have four 
votes pending, and upon that, and upon thanking you again, we 
are adjourned.
    [Whereupon, at 1:07 p.m., the committee was adjourned.]



=======================================================================


                            A P P E N D I X

                           September 10, 2008

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 10, 2008

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 45827.001
    
    [GRAPHIC] [TIFF OMITTED] 45827.002
    
    [GRAPHIC] [TIFF OMITTED] 45827.003
    
    [GRAPHIC] [TIFF OMITTED] 45827.004
    
    [GRAPHIC] [TIFF OMITTED] 45827.005
    
    [GRAPHIC] [TIFF OMITTED] 45827.006
    
    [GRAPHIC] [TIFF OMITTED] 45827.007
    
    [GRAPHIC] [TIFF OMITTED] 45827.008
    
    [GRAPHIC] [TIFF OMITTED] 45827.009
    
    [GRAPHIC] [TIFF OMITTED] 45827.010
    



=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 10, 2008

=======================================================================


    [GRAPHIC] [TIFF OMITTED] 45827.011



=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 10, 2008

=======================================================================


             RESPONSE TO QUESTION SUBMITTED BY MR. SKELTON

    Ambassador Edelman. On September 26, 2008, the Office of the Under 
Secretary of Defense (Comptroller) staff provided to your office a list 
of the 707 projects in Iraq on which $100,000 or more has been expended 
in the first three quarters of FY 2008.
    This list is out of a total of nearly 6,500 CERP projects that have 
been executed across Iraq by the commanders in the field. [See page 
36.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. TAYLOR
    Admiral Winnefeld. The MRAP vehicle fielding plan for home station 
training is driven by the operational requirements in theater. Fielding 
vehicles in Iraq and Afghanistan is the Department's top priority; home 
station training is the next highest vehicle fielding priority.
    The Department is committed to providing assets to train as we 
fight. However, with increasing requirements in Afghanistan, the MRAP 
fielding at home station training bases will be delayed until 
operational requirements are met. The USMC, USN and USAF fielding plans 
provided initial vehicles for home station training requirements but 
the need to support increasing operational requirements will delay 
final fielding of training vehicles. The USA plans to complete their 
theater fielding before they begin cascading older MRAP vehicles from 
Iraq to CONUS for home station training. While current production and 
fielding plans call for the USMC, USN, and USAF to complete fielding of 
home station training vehicles in early 2009, increasing operational 
requirements in Afghanistan are likely to delay final fielding of 
training vehicles. The Army plans to cascade older MRAP vehicles back 
to CONUS for home station training after completing theater fielding 
requirements in summer 2009. [See page 49.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. BOYDA
    Ambassador Edelman. The U.S. continues to receive substantial 
returns from the use of coalition support funds (CSF) to reimburse 
Pakistani operations in the War of Terrorism. The Pakistan Army has 
broadened its engagement in the tribal areas against violent 
extremists, suffered larger numbers of casualties than any other 
coalition member in the fight against extremists, and Pakistan's 
contributions further U.S. objectives in the War on Terror (WOT).
    Coalition Support Funds are not military assistance. They are a 
reimbursement for the actual costs incurred by Pakistan, and 26 other 
nations, in support of U.S. military operations in the WOT.
    The U.S. has reimbursed Pakistan $6.3B for the support it has 
rendered to U.S. forces since 2001. Major expense categories and costs 
are

    <bullet>  Operations: Operate and maintain forward ground and air 
bases; conduct air and maritime operations

    <bullet>  Subsistence: Food, clothing, billeting, and medical 
expenses for deployed forces

    <bullet>  Reconstitution: Repair and maintenance of weapons and 
vehicles; replace combat losses

    <bullet>  Surveillance: Air defense radars, surveillance, and 
operational watch costs

    <bullet>  Logistics: Transportation, communications, manual labor 
charges, road construction to facilitate movement to remote areas

    <bullet>  Helicopters: Lease of 26 Bell 412 helicopters to provide 
air mobility

    <bullet>  Ammunition: Cost of ammunition used in operations

    Coalition Support Funds (CSF) have allowed Pakistan to deploy and 
maintain in excess of 100,000 Army and paramilitary forces along the 
Pakistan-Afghanistan border.

    <bullet>  Since December 2001, Pakistan has conducted 91 major and 
countless small operations, and suffered more than 1400 combat deaths 
in support of U.S. military operations in Afghanistan. Of note, due to 
increased operational tempo, Pakistan has sustained as many casualties 
in these operations since July 2007 as in the five previous years of 
operations.

    <bullet>  Pakistan has assisted in the capture or elimination of 
more Al Qaeda (AQ), Taliban, and other extremists than any other 
coalition partner. Those captured include 9/11 mastermind Khalid Sheik 
Muhammad, AQ operational planner Abu Faraj al-Libbi, and Taliban 
military leader Mullah Obeidullah.

    The CSF reimbursement process is timely, thorough with multiple 
levels of oversight, and takes into account currency fluctuations.

    <bullet>  The U.S. Embassy in Islamabad receives and endorses 
Pakistani claims, U.S. Central Command validates that the costs were 
incurred in support of the WOT, and the OSD Comptroller evaluates for 
reasonableness and alignment with previous claims.

    <bullet>  The USD (Policy) and the Department of State confirm that 
reimbursements are consistent with USG national security and do not 
unfavorably affect the balance of power in the region.

    <bullet>  The four congressional defense oversight committees are 
notified before any reimbursement.

    <bullet>  The U.S. Embassy in Islamabad works closely with Pakistan 
to ensure that the process for substantiating Pakistan's claims is as 
thorough and transparent as possible.

    In addition, the Department revised its CSF procedures and 
processes in 2008 based on suggestions from the Government 
Accountability Office (GAO). The Department's goal is to achieve 
greater accountability and oversight of CSF while reimbursing Pakistan 
fairly and promptly. Actions taken since the GAO report include:

    <bullet>  Department published new guidance, June 19, 2008, that:

        --  Is more prescriptive for coalition country claims, U.S. 
        Embassy endorsements, and U.S. Combatant Command operational 
        validations

        --  Allows for an operational assessment of costs (i.e., based 
        on operations vice actual invoices, contracts, receipts, if 
        such are not available)

        --  Is continually being assessed to ensure it can he 
        implemented and audited

    <bullet>  Department team visited Pakistan August 3-8, 2008

    <bullet>  Department prepared specific guidelines for Pakistan's 
claims

    <bullet>  The Department plans to meet every six months with the 
Pakistan Joint Staff and military services to ensure continued dialog 
and transparency

    The Department will provide additional details on CSF to Congress 
in April 2009 in accordance with Section 1217 of the FY2009 National 
Defense Authorization Act. [See page 33.]
                                 ______
                                 
          RESPONSES TO QUESTIONS SUBMITTED BY MS. SHEA-PORTER
    Admiral Winnefeld. Through DESC's Bulk Petroleum purchase program, 
the following are the current contract prices (effective October 16, 
2008):

    Kuwait Petroleum Corporation (FOB Origin contracts, no 
transportation included). We believe that fuel from Kuwait is from 
crude produced and refined in Kuwait.

    Jet Al- $1.261095 - $2.465
    Diesel - $2.28
    Motor Gasoline - $1.908704

    IOTC (FOB Destination prices, which include ocean transport to 
Jordan, storage in Jordan and truck delivery into Iraq). IOTC's offers 
states that refined product is from Saudi Arabia, United Arab Emirates, 
Bahrain, Kuwait and/or Qatar. We cannot advise the country of origin of 
the crude used to produce these products, because DESC's solicitation 
did not require this information.

    JP8 - $3.589631
    Diesel - $3.368516
    Motor Gasoline - $3.316746

    Through DESC's Direct Delivery Fuels program, with product coming 
through Turkey, the following are the escalated contract prices 
effective October 1, 2008. Products are refined in Turkey (Tupras 
refineries in Izmit, Kirkale, and Batman). The crude is 10% domestic, 
and 90% imported from Kirkuk, Iraq (via Kirkuk-Ceyhan Oil Pipeline) and 
Baku, Azerbaijan (via Baku-Tbilisi-Ceyhan Pipeline from the Azeri-
Chirag-Guneshli oil field in the Caspian Sea).

    (RAM) - Gasoline; range is $3.060400/USG - $3.105867/USG
    (Golteks) - Diesel Fuel; range is $3.355859/USG - $3.455859/USG
    [See page 41.]

    Ambassador Edelman. DoD's Task Force to Improve Business and 
Stability Operation in Iraq (TFBSO), led by Deputy Under Secretary of 
Defense for Business Transformation, Mr. Paul Brinkley, has helped 
Iraqis learn to market their products to international markets as well 
as within Iraq. Several of the clothing factories that Task Force has 
worked with are now running at or near capacity. However, the Task 
Force focuses much more broadly on economic stability in Iraq as a way 
to bolster security for our troops on the ground and for Iraq's nascent 
democracy. TFBSO's most tangible accomplishments to date have been the 
establishment/restoration of over 100,000 sustained manufacturing and 
professional jobs and assistance in the restart or significant increase 
of production for 66 factories within 35 state-owned factories in Iraq. 
Privatization is now underway for many of the factories that have been 
restarted. [See page 42.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 10, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. Do you intend to ensure all sections of the 2005 BRAC 
law are upheld, especially with respect to the Joint Strike Fighter 
being based at Eglin Air Force Base?
    Secretary Gates. The Department understands that it has a legal 
obligation to close and realign all installations recommended for 
closure and realignment by the Commission and approved by the President 
and Congress. The Department will fully comply with all BRAC 2005 
closure and realignment recommendations.
    Mr. Miller. Do you believe that any service should take action (or 
take no action) based solely on a belief that an action, although 
necessary due to the law, may result in a lawsuit? It is our 
understanding the Air Force may be doing just that with respect to the 
Eglin Air Force Base Joint Strike Fighter Environment Impact Statement.
    Secretary Gates. The Department of Defense and the Military 
Services face many risks in taking actions and accomplishing our 
mission. Litigation is a potential risk during the environmental 
planning process, but we remain committed to taking actions through 
informed decision making. I am confident that our environmental 
planning process provides our decision makers thorough analysis of 
potential impacts.
    Mr. Miller. Do you support the expansion of Tricare benefits to 
military retirees with autistic children? Are you aware this is 
currently not the case? Military retirees with autistic children do not 
qualify for the same benefits under the ECHO program as they did on 
active duty.
    Secretary Gates. Applied behavioral analysis therapy is a covered 
educational intervention for Autism Spectrum Disorders under the ECHO 
program. Only those individuals who are licensed or certified by a 
State or certified by the Behavior Analyst Certification Board as a 
Board Certified Behavior Analyst (BCBA) or a Board Certified Associate 
Behavior Analyst (BCABA) are eligible to be TRICARE authorized 
providers of applied behavioral analysis therapy under ECHO. There is a 
severe national shortage of these qualified providers, making it very 
difficult for families with autistic children, including military 
families, to obtain applied behavior analysis (ABA) autism intervention 
services. As a result, military families' access to ABA services for 
their autistic children has been limited.
    In an effort to explore a means of mitigating this lack of 
providers, the Department initiated an autism services demonstration on 
March 15, 2008, intended to assess the feasibility of providing 
effective ABA intervention by using tutors working under supervision by 
certified BCBAs and BCABAs. Because the demonstration is in its early 
stages, whether the supervised tutor model will be successful has not 
yet been determined. Until establishing an effective means of 
increasing qualified ABA providers, it would be premature to open ECHO 
autism services to children of retirees. To do so now would only 
exacerbate the difficulty active duty families have in accessing these 
services.
    Mr. Miller. What capabilities are we using to protect U.S. forces 
in Afghanistan operating in battlespace that is controlled by our 
Allies against IEDs? I am disturbed at some reports that U.S. teams 
training Afghan police in Helmand and Kandahar provinces are operating 
on Highway 1 without their routes being properly swept for IEDs.
    Secretary Gates. [The information referred to is classified and 
retained in the committee files.]
    Mr. Miller. Are you aware of any reports that training teams in RC-
South in Afghanistan are being told to reduce operations because there 
is not enough medevac support?
    Secretary Gates. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Dr. Gates, press reports over the past three months 
suggest that the Bush Administration has delayed taking action on 
several critical arms sales to Taiwan. Can you tell me what the 
Administration position is on pending Taiwan arms sales and when the 
Administration will send these cases to Congress for legislative 
review?
    Secretary Gates. U.S. policy on arms sales to Taiwan is guided by 
the Taiwan Relations Act, under which the U.S. makes available items 
necessary for Taiwan to maintain its self defense. The Administration 
notified Congress on October 3 that it intends to sell to Taiwan 
various defensive weapons, including PAC-3 missiles, helicopters, 
aircraft parts, Harpoon missiles, anti-tank missiles, and upgrades to 
Taiwan's early warning aircraft.
    Some of Taiwan's requests continue to be under review by the 
Administration. In accordance with Administration policy, we do not 
comment on our deliberations on specific weapons systems under 
consideration. When these deliberations are complete and the 
Administration decides to move forward with a weapon system sale, we 
will submit the notification to Congress for review.
    Mr. Franks. ADM Mullen, you have often said that one ``cannot talk 
about Afghanistan without also talking about Pakistan.'' In what ways 
do you feel the U.S. can help the Pakistanis' efforts to fight Taliban 
and Al-Qaeda aligned militants in the Federally-Administered Tribal 
Areas and to win the ``war of ideas'' against extremism throughout the 
country?
    Admiral Mullen. The U.S. can help Pakistan in their efforts to 
fight Taliban and Al Qaeda through helping to build the 
counterinsurgency capabilities of Pakistan's security forces and by 
providing key enablers to these forces. The U.S. can also help in this 
fight through non-military assistance such as our support to Pakistan's 
Security Development Plan, which is designed to improve the economic 
conditions of the people in the tribal areas and bring better 
governance to the area. Bringing security to the people of the western 
Pakistan region and improving the economic condition of the people will 
go a long way toward winning the ``war of ideas''. An example of the 
positive effects of providing strong assistance to Pakistan was the 
earthquake relief effort in 2005, which showed the U.S. in a positive 
light to the people of northern Pakistan. A strong U.S. support effort 
for the tribal regions could bring about similar results.
    Mr. Franks. ADM Mullen, what is your opinion of Foreign Military 
Financing of F-16 Mid-Life Upgrade for Pakistani Air Force F-16s? In 
your estimation, do these upgrades support Pakistani counterterrorism 
operations?
    Admiral Mullen. I support Foreign Military Financing (FMF) for F-16 
Mid-Life Upgrade (MLU) for Pakistani Air Force F-16s and when 
completed, believe these upgrades will support Pakistani 
counterterrorism operations. Pakistan is a key partner in the War on 
Terror, and plays a critical role in our long-term efforts to build a 
stable and democratic Afghanistan. This F-16 FMF program to Pakistan 
dates back to 1983 and was interrupted in the 1990s by nuclear-related 
sanctions. Since its resumption in 2006, this F-16 program is 
considered by the Pakistanis to be the most important symbol of the 
U.S.-Pakistan security relationship. Pakistan has used F-16s to support 
military operations in the Federally Administrated Tribal Area (FATA), 
most recently in operations in Bajaur where their extensive use has 
been publicly reported. The key capabilities that this MLU will bring 
to Pakistan is broader day/night use and precision strike capabilities, 
which can diminish collateral damage during counterterrorism and 
counterinsurgency operations.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER
    Ms. Shea-Porter. Who are we buying our fuel from right now for the 
U.S. military in Iraq? And how much are we paying? Where did the fuel 
come from (what is the country of origin of the crude oil, and where 
was it refined)?
    Admiral Mullen. The Defense Energy Support Center (DESC), a field 
activity of the Defense Logistics Agency, supplies U.S. Forces in Iraq 
from Kuwait, Jordan and Turkey.
    Through DESC's Bulk Petroleum purchase program, the following are 
the current contract prices (effective October 16, 2008):

    Kuwait Petroleum Corporation (FOB Origin contracts, no 
transportation included). We believe that fuel from Kuwait is from 
crude produced and refined in Kuwait.

    Jet Al - $1.261095 - $2.465
    Diesel - $2.28
    Motor Gasoline - $1.908704

    IOTC: (FOB Destination prices, which include ocean transport to 
Jordan, storage in Jordan and truck delivery into Iraq). IOTC's offers 
states that refined product is from Saudi Arabia, United Arab Emirates, 
Bahrain, Kuwait and/or Qatar. We cannot advise the country of origin of 
the crude used to produce these products, because DESC's solicitation 
did not require this information.

    JP8 - $3.589631
    Diesel - $3.368516
    Motor Gasoline - $3.316746

    Through DESC's Direct Delivery Fuels program, with product coming 
through Turkey, the following are the escalated contract prices 
effective October 1, 2008. Products are refined in Turkey (Tupras 
refineries in Izmit, Kirkale, and Batman). The crude is 10% domestic, 
and 90% imported from Kirkuk, Iraq (via Kirkuk-Ceyhan Oil Pipeline) and 
Baku, Azerbaijan (via Baku-Tbilisi-Ceyhan Pipeline from the Azeri-
Chirag-Guneshli oil field in the Caspian Sea).

    (RAM) - Gasoline; range is $3.060400/USG - $3.105867/USG
    (Golteks) - Diesel Fuel; range is $3.355859/USG - $3.455859/US

                                  <all>

</pre></body></html>
